<html>
<title> - OVERSIGHT OF THE AMTRAK ACCIDENT IN PHILADELPHIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      
            OVERSIGHT OF THE AMTRAK ACCIDENT IN PHILADELPHIA

=======================================================================

                                (114-19)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
             
             
             
             
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                               ______________     
        
        
        
        
                          U.S. GOVERNMENT PUBLISHING OFFICE
94-806 PDF                         WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York






                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               WITNESSES

Hon. Christopher A. Hart, Chairman, National Transportation 
  Safety Board:

    Testimony....................................................     5
    Prepared statement...........................................    78
    Responses to questions for the record from the following 
      Representatives:

        Hon. Andre Carson, of Indiana............................    88
        Hon. Peter A. DeFazio, of Oregon.........................    89
Hon. Joseph H. Boardman, President and Chief Executive Officer, 
  Amtrak:

    Testimony....................................................     5
    Prepared statement...........................................    93
    Responses to questions for the record from the following 
      Representatives:

        Hon. Todd Rokita, of Indiana.............................   101
        Hon. Corrine Brown, of Florida...........................   101
        Hon. Jerrold Nadler, of New York.........................   102
Sarah Feinberg, Acting Administrator, Federal Railroad 
  Administration:

    Testimony....................................................     5
    Prepared statement...........................................   104
    Responses to questions for the record from the following 
      Representatives:

        Republican Members of the Committee on Transportation and 
          Infrastructure.........................................   113
        Hon. Andre Carson, of Indiana............................   116
        Hon. Peter A. DeFazio, of Oregon.........................   117
Dennis R. Pierce, National President, Brotherhood of Locomotive 
  Engineers and Trainmen, and President, Teamsters Rail 
  Conference:

    Testimony....................................................     5
    Prepared statement...........................................   121
    Responses to questions for the record from the following 
      Representatives:

        Hon. Andre Carson, of Indiana............................   129
        Hon. Peter A. DeFazio, of Oregon.........................   130

                       SUBMISSIONS FOR THE RECORD

Hon. John L. Mica, a Representative in Congress from the State of 
  Florida, submission of the following documents:

    Article entitled, ``SMART, BLET to Fight KCS In-Cab 
      Cameras,'' May 10, 2013....................................    24
    Letter from Jeffrey S. Steinberg, Deputy Chief, Spectrum and 
      Competition Policy Division, Wireless Telecommunications 
      Bureau, Federal Communications Commission, to Timothy 
      Strafford, Assistant General Counsel, Association of 
      American Railroads, January 8, 2014........................    26
Hon. Michael E. Capuano, a Representative in Congress from the 
  State of Massachusetts, submission of the following documents:

    Letter from Tom Wheeler, Chairman, Federal Communications 
      Commission, to Hon. Doris O. Matsui, a Representative in 
      Congress from the State of California, February 11, 2015...    69
    Chart depicting aggregate actual Positive Train Control pole 
      application submissions to the Federal Communications 
      Commission for all railroads (as of May 22, 2015)..........    72
    Chart depicting monthly Positive Train Control pole 
      application submissions to the Federal Communications 
      Commission by all railroads (as of May 22, 2015)...........    73
    Letter from Roger S. Noel, Chief, Mobility Division, Wireless 
      Telecommunications Bureau, Federal Communications 
      Commission, to Brian W. Higgins and Lawrence J. Movshin, 
      Wilkinson Barker Knauer, LLP, May 29, 2015.................    74

                         ADDITION TO THE RECORD

National Transportation Safety Board, Preliminary Report, 
  Railroad, DCA15MR010...........................................   133
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
            OVERSIGHT OF THE AMTRAK ACCIDENT IN PHILADELPHIA

                              ----------                              


                         TUESDAY, JUNE 2, 2015

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. Today's 
hearing will focus on the tragic Amtrak accident that occurred 
in Philadelphia on May 12th. We have all heard some of the 
preliminary information surrounding this terrible event, an 
Amtrak Northeast Regional train en route from Washington to New 
York derailed at a curve in Philadelphia.
    The National Transportation Safety Board has reported that 
the train was traveling at 106 miles per hour despite a 50-
mile-an-hour speed limit on that portion of the track. Eight 
passengers tragically lost their lives, and approximately 200 
were injured. We were not aware of any defects or issues 
identified to date with respect to the track, the locomotive or 
other infrastructure. Today, we will get an update from the 
NTSB on where their investigation stands, and any additional 
information they can provide on the cause of this accident.
    Since the accident, the Federal Railroad Administration and 
Amtrak have taken several steps to improve safety along the 
Northeast Corridor. Amtrak is assessing all the curves along 
the NEC to determine if additional speed restrictions should be 
imposed. Amtrak has also announced it will be installing 
inward-facing cameras in its locomotives to help gain a better 
understanding of how incidents occur. And they have also 
committed to finish implementation of Positive Train Control on 
the Northeast Corridor by December of this year.
    Today, I want to review what actions Amtrak and the FRA 
took on passenger rail safety before this accident, 
particularly why FRA didn't mandate the review of severe curves 
sooner.
    Finally, this accident, once again, highlighted the central 
role the Northeast Corridor plays in moving people along the 
east coast. The NEC represents 2 percent of the Nation's 
landmass, but 18 percent of the population and 20 percent of 
our Nation's GDP. Hundreds of thousands of people use the 
corridor daily to get to work, travel between some of our 
largest cities. When the corridor is out for just several days, 
there is a real and significant impact on people's lives and 
the economy.
    This committee is committed to focusing resources and 
improving the Northeast Corridor, including in our bipartisan 
Amtrak reform bill that passed the House just a few months ago. 
I look forward to working with my friends in the Senate to get 
that reform bill enacted into law. In closing, I look forward 
to hearing from our witnesses regarding these important issues.
    I would now like to recognize Ranking Member DeFazio for an 
opening statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for holding 
this hearing today.
    I certainly agree with you about the extraordinary 
importance to the concentrated population on the east coast of 
the United States on the use of this corridor on a daily basis 
in terms of the number of people that use it and the 
contribution to the economy and what happens when that corridor 
goes down.
    And I also agree that this committee does have a long-term 
commitment to Amtrak and other infrastructure needs of the 
United States. Unfortunately, that is not shared by your 
Republican colleagues on the Transportation, Housing, and Urban 
Development Appropriations Subcommittee.
    In fact, on the day of the accident, they cut $290 million 
from the capital budget of Amtrak. The capital budget goes to 
things like Positive Train Control. It also goes to things like 
the 140-year-old tunnel. You know, if that collapses or becomes 
unusable, the system will totally be out of use for an 
indefinite period of time or many of the 100-year-old bridges 
that need repair or replacement along that line.
    Any cuts to the budget of Amtrak, which has a $21 billion--
$21 billion, ``B,'' billion dollar--backlog on critical 
infrastructure investments, maintenance investments, things 
that do include Positive Train Control, do include bridges, 
bridge safety, do include signal systems, and other things that 
are so outmoded. And I don't think they are using even vacuum 
tubes. They are sort of before that era.
    It is not OK. And to further reduce that budget is going to 
jeopardize minimally the operation of this corridor or, even 
worse, cause an accident directly with a tunnel collapse or a 
bridge collapse or failure of signal system. We can't point to 
this accident and say that it was directly caused by a lack of 
investment. That is true. We still don't know what happened, 
and we are looking forward to the NTSB's findings.
    But we do know that the NTSB first, in 1969, proposed that 
we should move forward with Positive Train Control. They have 
something called the Most Wanted List. In 1990, the first 
edition of the Most Wanted List said we needed Positive Train 
Control. And since that time, quite a number of people have 
died in preventable accidents around the country because of the 
lack of Positive Train Control.
    Yes, human error. That is what Positive Train Control is 
designed to prevent: human error. This was probably human 
error. We still don't know if there was a mechanical 
malfunction. It is a relatively new train set. But we don't 
know yet. The point is, PTC could prevent accidents like this. 
It could have prevented many other accidents over the last two 
decades since it was first recommended by NTSB, and we need to 
move forward with all due dispatch in installing that system on 
commuter railroads and passenger, other passenger railroads and 
on the entire Amtrak system, and on those required critical 
freight lines, particularly those carrying hazardous materials, 
particularly through urban areas.
    So I am pleased we are here today to try and understand 
better what caused this accident, what we might do to prevent 
them in the future. I don't think we are going to get to any 
definitive point. But for me, bottom line is, you know, we can 
no longer ignore a $21 billion backlog. We can't ignore we are 
running trains over 100-year-old bridges of dubious stability. 
We can't ignore that we are running trains through 140-year-old 
tunnels that need total rehabilitation. We can't, any longer, 
ignore the fact that we have the signalization systems that are 
pre-vacuum tube era that are trying to link into more modern, 
sophisticated systems.
    So there is much to be done, and I wish that all our 
colleagues in Congress shared our commitment to infrastructure 
investment.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Shuster. I thank the gentleman.
    And with the concurrence of the ranking member, I will now 
recognize the chairman of the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials, Mr. Denham.
    Mr. Denham. Thank you, and good morning. First, let me 
thank you for holding this hearing; obviously, very important.
    I also want to thank Ranking Member Capuano for quickly 
going up to Philadelphia and really surveying the situation 
with me. It was important to see firsthand and understand 
specifically some of the things that were happening.
    But let me talk a little bit about my frustration. We went 
up there to immediately assess the situation. NTSB was already 
making definitive statements, and now 3 weeks later, while we 
had a brand new locomotive, we still can't confirm whether or 
not there was a malfunction with that locomotive. And even 
though NTSB made definitive statements, still cannot defend 
whether or not there was an operator error. Cannot identify 
whether or not there was an engineer that bypassed the system.
    The engineer has been working with NTSB, but still cannot 
verify that the cell phone that was in use, whether it was 
texting or using cell phone service during that time. It is my 
understanding the engineer has given his passport, and yet we 
can't still identify whether or not there was an issue. So my 
concern is that NTSB came out and made an immediate statement a 
couple of hours after the accident, but 3 weeks later is unable 
to identify any of these issues around it.
    I think this committee expects answers. I think the 
families are owed answers. I think the American public is 
looking to make sure that rail is safe across our entire 
Nation. We are also looking for solutions. I am looking forward 
to seeing PTC implemented in a very, very quick manner. But I 
would ask that you take a look at this emergency proclamation 
that was put out--emergency order that was put out by FRA.
    My concern is, a year and a half ago, when we had Metro-
North, one of the worst accidents that this country has ever 
seen, almost the exact same emergency order was put out. A year 
and a half ago. The same PTC was important, and yet we still 
don't have PTC on that area of track either. So now a new 
emergency order saying that we will have PTC on the Northeast 
Corridor by the end of the year, obviously we have concerns.
    We are looking for solutions. I think the families deserve 
to hear what those solutions are, but more importantly, that 
those solutions are actually put into place.
    And with that, Mr. Chairman, I yield back.
    Mr. Shuster. I thank the gentleman.
    Now recognize the ranking member of the subcommittee, Mr. 
Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. I thank you for 
having this hearing.
    I welcome the members of the board. I am looking forward to 
your testimony. We all want answers. I know you want answers 
too, but I also want them to be right. More than anything else, 
they need to be right, not speculation.
    I also want to just comment that I know that many people 
along the Northeast Corridor, particularly those in 
Philadelphia, my friend, Congressman Brady, and my friend, 
Congressman Fattah, are watching this closely, and they want 
answers as well, and they will be keeping a close eye on this.
    I guess I am looking forward to the specific lessons we 
learn, but I also think we need to look at the lessons that 
Congress should learn. What should our priorities be? We talk a 
good game, but we are the funders. Are we going to fund this, 
or are we not going to fund it? We talk a good game, but PTC is 
not new, and it is not limited just to Amtrak.
    Positive Train Control is an issue across the country on 
every rail line of this country. Are we going to require it, or 
are we not? Everybody here knows we don't want to talk about 
it, but there are several proposals floating around Congress 
right now to delay it even further. And we all understand the 
realities and the cost involved, but those are questions we 
need to ask on a serious basis, how much responsibility will we 
as Members of Congress take on our shoulders the next time an 
accident happens and we look in the mirror.
    Have we done everything we can reasonably do, reasonably 
do, to prevent it? I am not looking for scapegoats. I am 
looking for answers, as we all are. And I have full faith that 
the NTSB, along with the FRA and Amtrak, will find those 
answers. And, again, I want them quickly, but more importantly, 
I want them right.
    And again, I appreciate you being here, and I appreciate 
the chairman calling this hearing very much. Thank you. I yield 
back.
    Mr. Shuster. Thank you.
    And with that, I would like to welcome our panel of 
witnesses. Thank you for being here today. First, the Honorable 
Christopher Hart. He is the Chairman of the National 
Transportation Safety Board.
    Next, the Honorable Joseph Boardman, the President and 
Chief Executive Officer of Amtrak.
    Next, Ms. Sarah Feinberg, the Acting Administrator for the 
Federal Railroad Administration, and has just been nominated. 
So congratulations as you go through that process. Good luck.
    And Dennis Pierce, the national president of the 
Brotherhood of Locomotive Engineers and Trainmen.
    Again, thank you, all, for being here. I ask unanimous 
consent that our witnesses' full statements be included in the 
record. Without objection, so ordered. Since your complete 
written testimony is going to be in the record, we would ask 
you to keep it to about 5 minutes, your statement.
    And with that, we will start with Mr. Hart. Please proceed.

   TESTIMONY OF HON. CHRISTOPHER A. HART, CHAIRMAN, NATIONAL 
TRANSPORTATION SAFETY BOARD; HON. JOSEPH H. BOARDMAN, PRESIDENT 
  AND CHIEF EXECUTIVE OFFICER, AMTRAK; SARAH FEINBERG, ACTING 
 ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION; AND DENNIS R. 
PIERCE, NATIONAL PRESIDENT, BROTHERHOOD OF LOCOMOTIVE ENGINEERS 
     AND TRAINMEN, AND PRESIDENT, TEAMSTERS RAIL CONFERENCE

    Mr. Hart. Thank you, and good morning.
    Chairman Shuster, Ranking Member DeFazio, and members of 
the committee, thank you for inviting the NTSB to appear before 
you today. Earlier this morning, we released a preliminary 
report on this investigation. It is a summation of facts that 
we have released up to this point, and I would like to review 
these facts briefly with you this morning.
    At approximately 9:21 p.m. on Tuesday, May 12, Amtrak 
Regional Train 188 derailed at Frankford Junction north of 
Philadelphia's 30th Street Station.
    Mr. Shuster. Can you pull your mic closer?
    Mr. Hart. Oh, yes. I am sorry.
    As the chairman mentioned, the NTSB has determined that 
seconds before the derailment, the train was traveling at 106 
miles an hour heading into a 50-mile-per-hour curve. Emergency 
braking was applied, but the train slowed to only 102 miles per 
hour before the data recording ended. Sadly, 8 people were 
killed, and more than 200 people were injured as a result of 
this accident.
    On behalf of the NTSB, I would like to offer my sincerest 
condolences to those who lost loved ones, and our thoughts 
remain with those who are still recovering from their injuries. 
Briefly, areas we will explore in this investigation include 
tracks, recorders, mechanical, signals, operations, human 
performance, survival factors, and medical. Much work remains, 
but there are few facts that I can report to you today.
    We know that a properly installed and functional Positive 
Train Control system, or PTC, would have prevented this 
accident. PTC is technology that is designed to prevent 
overspeed derailments as well as train-to-train collisions, 
incursions into roadway worker protection zones, and 
proceedings through misaligned switches.
    The accidents we have investigated have shown us that we 
need technology that can step in when humans fail due to 
distraction, medical conditions, or other factors.
    As a result, NTSB has called for train control technology 
for decades, as was mentioned, since 1969. Present law requires 
implementation of PTC by the end of this year, fully 7 years 
after the mandate was signed by Congress into law. We know that 
most railroads will not comply with this law. Those railroads 
that have made the difficult decisions and invested in this 
proven safety enhancement should be commended for their 
leadership. Any extension of this deadline must have a 
transparent accounting of the steps that will be taken to meet 
a new deadline. Regulators and policymakers need that 
information to make important policy decisions, and the 
traveling public deserves that accountability.
    Railcar crashworthiness is another area that we will 
investigate. As you can see from the pictures, the survivable 
space in the first passenger car was severely compromised. We 
will fully document and analyze the damage to this car and 
other cars and make recommendations that the NTSB determines 
are necessary to improve crashworthiness and build on existing 
recommendations in this area.
    We have received full cooperation from the crew in their 
interviews and followup conversations. As you know, we are 
evaluating the engineer's cell phone records to correlate the 
timing of the data and voice activity on May 12 with the 
accident timeline. This process involves reviewing the 
timestamps from the phone records, which are from different 
time zones, with data from other recorded information, such as 
the locomotive event recorder, the outward-facing video camera, 
radio communications, and surveillance video. When we have 
clarity on this timeline, we will release this information to 
you and to the public.
    Additionally, the NTSB has called for inward- and outward-
facing video and audio recorders on trains since 2007. While 
Amtrak uses outward-facing cameras, they were not using inward-
facing cameras at the time of this accident. These cameras can 
provide critical information to the NTSB as we work to 
determine ways to prevent future accidents.
    In this case, the engineer states that he has no memory of 
the events leading up to the derailment. Video could fill in 
those gaps. I am encouraged by Amtrak's announcement that they 
intend to install inward-facing cameras, but we recommended 
installing locomotive cab audio recorders as well.
    We look forward to learning more about Amtrak's initiative, 
and I hope the FRA will proceed with requiring the installation 
of both inward-facing video cameras and locomotive cab audio 
recorders throughout the U.S. rail fleet. As I stated, we have 
much work ahead of us, and I will keep you informed as this 
investigation proceeds. I appreciate the opportunity to appear 
before you today, and I am available to answer your questions. 
Thank you.
    Mr. Shuster. Thank you, Mr. Hart.
    And with that, Mr. Boardman, please proceed.
    Mr. Boardman. Thank you. I must start this morning by 
offering my heartfelt regret for the recent derailment at 
Frankford Junction. It was Amtrak's train on our railroad, and 
we are responsible for the incident and its consequences. I 
regret it deeply, and based on the conversations that I have 
had over the last 3 weeks, that sentiment is shared by everyone 
in our company.
    Everything we have done since the accident has been driven 
by a sincere hope that we could do something, however small, to 
mitigate the suffering and loss that everyone endured as a 
result of this terrible accident. We have been greatly helped 
in that effort by the people of Philadelphia, and I would like 
to thank all of them, but particularly Mayor Nutter, the 
police, the fire, and the EMS services, and the staff of the 
hospitals who received and treated the injured. Thank you for 
everything you did on behalf of our passengers and our 
employees.
    I should also take this opportunity to note that we want to 
do everything we can to support the NTSB's investigation. I 
will refrain from addressing matters that are still under 
investigation. We will be working closely with both the NTSB 
and our regulators, the FRA, to ensure we address the root 
causes of this accident.
    And to you, ladies and gentlemen of the committee, and to 
our passengers and employees, we run a safe railroad. And 
safety will continue to be our top priority. The Northeast 
Corridor, in particular, has an excellent safety record, and 
this accident is so shocking because it is so unexpected. And 
no other place in the country is a comparable volume of traffic 
moved with such a solid record.
    The last previous derailment on the Northeast Corridor with 
passenger fatalities occurred 28 years ago. The Northeast 
Corridor's safety systems are the best in the country. We 
operate a layered signal system that provides trains with 
multiple levels of protection. There is a trackside signal 
system. There is an alerter to ensure that engineers are awake. 
There is a cab signal system. There is an Automatic Train 
Control system, ATC, to prevent train collisions and stop the 
train if the crews fail to acknowledge or comply with signals.
    And finally, in places, there is the Advanced Civil Speed 
Enforcement System, ACSES. That is Amtrak's Positive Train 
Control system to stop trains if engineers fail to comply with 
authorized speed limits. ACSES is in service from New Haven to 
Boston and at points between Washington and New York where 
trains exceed 125 miles an hour. It is installed in the rest of 
the Amtrak owned-and-operated Northeast Corridor and should be 
operational in time to comply with the Federal statutory 
mandate of December 31, 2015.
    These systems backstop the people who are responsible for 
safe movement of our trains. We operate a thorough training 
oversight and coaching system for our crews. Our engineers and 
conductors are required to pass an extensive FRA-approved 
training program and to develop a very high level of 
familiarity with the route. Probably millions of train 
movements negotiated the curve at Frankford Junction safely 
since Amtrak took over the Northeast Corridor in 1976.
    The system works because, generally speaking, we have put 
together a series of layered nets, each guarding the previous 
layer. We rely on these systems, but we have never been able to 
completely eliminate the risk of human error. There is always a 
risk of a gap, and even the most tightly woven net. The train 
188 derailment revealed one such hole in our safety net.
    And in the weeks since the derailment, many people have 
raised a seemingly simple question: Why didn't the tracks where 
the accident occurred have some kind of safety feature 
installed to trip the signals and force the engineer to slow 
the train? This is the right question to ask, and I am going to 
address it directly while providing you the necessary 
background information to understand the answer.
    In 1990, an Amtrak train derailed on a sharp curve in Back 
Bay Station in Boston, and collided with an MBTA commuter 
train. That derailment was caused by an engineer failing to 
slow before a curve. Shortly thereafter, industry regulators 
and operators reviewed the NEC and looked for other places 
where the approached speed of a train was greater than the 
speed at which the train might derail in the curve if an 
engineer failed to slow down.
    At those points, we modified the ATC system by installing a 
code change point to force engineers to slow down. The 
southbound tracks at Frankford Junction were one such place. 
The derailment speed at Frankford Junction is 98 miles an hour. 
Northbound trains approach that curve at 80 miles an hour while 
the southbound train approaches at 110 miles an hour.
    So in short, when a train approaches from one direction but 
doesn't slow down, there is no risk of derailment. But if a 
train comes from the other direction and doesn't slow down for 
whatever reason, there is a risk of derailment. We therefore 
applied the modification to the southbound tracks so that 
trains approaching from the north at speeds of 110 would 
receive a signal indication in the cab just before the curve, 
forcing them to slow to 45 miles an hour so that they could 
pass through the curve safely at 50 miles an hour.
    The northbound track did not have the same protection 
installed because the approach speed was 80 miles an hour, 
which was slow enough that a train could round the curve at 
that speed without derailing if the engineer failed to slow 
down. At that time, the notion that an engineer might actually 
accelerate into the northbound curve was not a circumstance we 
anticipated; and thus, we didn't mitigate for it.
    It was a reasonable decision reached by reasonable experts 
under reasonable circumstances. And since this and similar 
change points were installed in 1991, the application of this 
policy successfully prevented overspeed derailments throughout 
the Northeast Corridor for about 25 years. That clearly changed 
on May 12. The proper response now is for us to figure out what 
happened and to narrow or eliminate the gap so that this 
accident cannot happen again.
    The full implementation of PTC later this year will be a 
major step forward in this regard. Until it is fully in 
service, we are working now with the FRA to implement the 
measures called for in the emergency order to ensure the safety 
of our trains and passengers.
    The most important thing we can do, however, is to 
implement PTC. Amtrak is the Nation's leader in PTC. We were 
the first railroad to secure regulatory approval for our PTC 
system in the 1990s, the first to put it into operation, and 
the only company to have a system approved for use for speeds 
up to 150 miles an hour. No other Class I railroad in the 
United States, not one, is as far along in installing PTC as 
Amtrak is.
    My belief in the importance of PTC predates my arrival at 
Amtrak. As the Federal Railroad Administrator, I worked hard to 
secure the passage of the law requiring PTC installation on the 
railroads. I still believe that the single greatest 
contribution that my generation of railroaders can make to this 
industry is to implement PTC as rapidly as possible. And I 
promise you that by the end of this year this system, which 
will dramatically enhance safety, will be complete and 
operational on the NEC.
    Thank you.
    Mr. Shuster. Thank you, Mr. Boardman.
    With that, Ms. Feinberg, you may proceed.
    Ms. Feinberg. Chairman Shuster, Ranking Member DeFazio, 
members of the committee, thank you for the opportunity to 
discuss issues related to the May 12 Amtrak accident in 
Philadelphia, Pennsylvania, and the safety of passenger rail.
    We extend our deepest sympathies to the victims of this 
accident and to their loved ones. And I can assure them that we 
will take every step we can to ensure an accident like this 
cannot happen again.
    I also want to thank the city of Philadelphia, its mayor, 
and its first responders for their heroic and incredible 
response to this accident. Their leadership was truly 
remarkable.
    Let me say at the outset, all of us at the FRA are 
heartbroken about this tragic accident. The driving mission of 
our organization is to keep the public safe, and so while every 
accident matters to us, this accident in particular, which 
appears to have been preventable, and which took so many lives 
and left so many injured, is truly painful for our FRA family.
    We continue to investigate the circumstances surrounding 
the accident. While it will take time to complete the 
investigation, we have not and will not wait to take actions 
that will improve the safety of Amtrak as well as other 
passenger rail operations.
    On May 16, 4 days after the accident, I directed Amtrak to 
take several actions before allowing its operations to resume 
north of Philadelphia. I followed those directives with an 
emergency order on May 21. Amtrak has complied with those 
directives thus far, and the FRA will ensure that Amtrak 
follows through to fully implement them.
    When we released the May 21 emergency order, we also stated 
that we were considering taking additional steps to direct 
similar orders at other passenger railroads that may have 
similar curve and speed issues. We continue our work on those 
directives, and we plan to release additional information about 
that work in the coming days.
    And while the cause of this accident has not been 
officially determined, we do know that speed was a significant 
factor. And speed, simply put, is what we refer to as a human 
factor, a factor based on human behavior. Human factors remain 
a leading cause of all rail accidents. They are also the most 
difficult to address.
    But today, I want to announce that FRA is preparing a 
package of actions that we will finalize in the coming weeks 
and months aimed at addressing just these kinds of factors: 
human factors, factors such as speed, distraction, and 
training. These actions may include additional emergency 
orders, safety advisories, rulemakings, agreements or other 
initiatives.
    And again, beyond just those next steps, I want to assure 
you that the FRA is firmly committed to continue taking 
additional actions, as many as it takes, that will mitigate the 
risks and hazards identified in the ongoing investigation.
    Now, there has been significant amount of public discussion 
about what specifically would have prevented this accident, 
which specific technology and which new regulation. But the 
reality is, is if we believe that the cause of this accident 
was speed, it would have been prevented by Positive Train 
Control.
    As this committee is well aware, Positive Train Control is 
the single most important railroad safety technological 
development in more than a century, and it is absolutely 
necessary to ensuring the kind of safety that we expect on our 
rail system. Per the Congress' mandate, railroads are required 
to install PTC on all passenger routes and certain freight 
routes by December 31, 2015, 7 months from now.
    FRA has been actively pushing the railroads to have PTC 
fully implemented by the deadline. We have met with the 
railroads for years on this issue. We have hired staff to 
assist and oversee the implementation of this technology. We 
have urged the submission of PTC safety and implementation 
plans. We have inquired with individual railroads and with the 
AAR about their progress. We have worked with the FCC to 
resolve issues related to spectrum.
    We have also urged, year after year, for more funding to be 
directed at commuter railroads and at Amtrak to implement 
Positive Train Control. For the past 2 years, as part of the 
GROW AMERICA Act, FRA has requested $825 million to assist 
commuter railroads with the implementation of PTC, as well as 
additional funding to aid with Amtrak's implementation of PTC.
    GROW AMERICA has also proposed that FRA be granted 
authority to review, approve, and certify PTC safety plans on a 
railroad-by-railroad basis. FRA asks for this authority in 
order to ensure that railroads would be forced to work with 
safety regulators to take other or equivalent actions to raise 
the bar on safety even prior to full PTC implementation. We 
believe it is important that even those railroads that fail to 
meet the congressionally mandated deadline be required to 
improve safety in the interim.
    Despite the many challenges facing full implementation of 
PTC, the FRA's role is to carry out the enforcement of the 
deadline that is mandated by the Congress and to ensure that 
railroads implement PTC as quickly, safely, and efficiently as 
possible. And so on January 1, 2016, the FRA will be prepared 
to take necessary enforcement actions against railroads that 
have failed to meet the deadline. Safety will always be the 
FRA's first priority.
    We appreciate this committee's attention and focus to 
issues related to the tragic Amtrak passenger train accident in 
Philadelphia. Again, I want to express our deepest sorrow for 
the victims and their families. We look forward to working with 
this committee to improve our programs and make the American 
rail network as safe, reliable, and efficient as possible, and 
I am happy to respond to your questions.
    Mr. Shuster. Thank you, Ms. Feinberg.
    Now, Mr. Pierce, you may proceed.
    Mr. Pierce. Good morning, Chairman Shuster, Ranking Member 
DeFazio, and committee members. The membership of the BLET and 
the Teamsters rail conference that I represent. Thank you for 
the invitation----
    Mr. Shuster. Could you pull the microphone closer?
    Mr. Pierce. OK. Thank you for the invitation to speak 
today.
    I first want to express our sincerest condolences to the 
victims of Amtrak 188 and to their families. This is sadly 
familiar territory for me, because I have had to convey BLET's 
sorrow to the families of 11 members killed in the line of duty 
since I became national president 5 years ago, and I fear that 
this will happen many more times.
    It is even more tragic when technology could have prevented 
the deaths and Positive Train Control could have saved five of 
those lives. The NTSB has confirmed that excess speed 
contributed to the derailment of Amtrak 188, and also, that 
this accident was PTC preventable. These facts implicate 
several core elements of Federal oversight of the railroad 
industry: the PTC mandate, crew size, fatigue, inward-facing 
cameras, and our expectations for Amtrak.
    The small percentage of Americans who are working 
locomotive engineers and all railroad operating employees are 
among the mostly highly skilled, highly trained, and highly 
regulated professionals in the Nation. But today's workplace 
often creates task overload for engineers, and when too much is 
expected of any system, man or machine, a breakdown is 
inevitable.
    One of the questions before us now is what level of risk we 
are willing to accept knowing all of that. Most of the 
industry, but not Amtrak or BNSF, seeks a blanket 5- to 7-year 
extension of the December 31 PTC deadline. Although not on the 
NEC, there have been peripheral problems with radio spectrum 
and FCC radio tower approvals, and those must be addressed. But 
they do not justify a blanket delay, and I urge you to not be 
stampeded into granting one. That would dishonor the memory of 
those who perished on May 12.
    And we must remember that PTC is no silver bullet. It is 
not designed to prevent every accident. And any claim that PTC 
renders a second crewmember unnecessary is just, plainly put, 
not true. PTC cannot replace the second crewmember because it 
doesn't do the work of a second crewmember. It isn't the second 
set of eyes and ears trained on the road ahead, to monitor the 
left side of the train for defects, stuck brakes, or observe 
the left side of the highway rail crossings for highway rail 
grade incidents, or to separate the trains when we have first 
responders that need to get access.
    We urge you to take up Congressman Young's Safe Freight 
Act, H.R. 1763, addressing those concerns. And we also think 
the time may have come to reconsider the 1981 NERSA language 
that eliminated the second crewmember on Northeast Corridor 
locomotives.
    While we do not know whether fatigue played a part on 
Amtrak 188, fatigue should be a major concern to all of us. To 
be frank, the 2008 overhaul of the rail hours of service has 
produced very little progress towards mitigating fatigue. Work 
schedules are still far too variable and unpredictable, 
especially on freight railroads.
    And instead of dealing with all issues contributing to 
fatigue, some have settled on single issues like sleep apnea. I 
am here to tell you that CPAP machines won't address fatigue 
caused by variable and unpredictable work schedules because you 
have to know when to sleep in order to get the benefit. We must 
redouble our efforts to eliminate the systemic fatigue in the 
railroad industry.
    I would also like to address the call for inward-facing 
cameras because it gets louder by the day. And we have said 
this for over 2 years: Cameras can be an accident investigation 
tool, but they create a false sense of security if more than 
that is expected. Cameras don't slow or stop trains; Positive 
Train Control does, and that is really the plainest way to put 
it.
    Our privacy concerns with cameras are what I would call 
America's privacy concerns. Many railroads insist on leaving 
cameras on continuously, even when trains are stopped on a 
siding for hours at a time with crews captive on a locomotive 
cab that comprises about 65 square feet of space. Constant 
surveillance like this, we view as un-American and it really 
does nothing to improve railroad safety. The truth is that some 
railroads have shown more interest in using the camera data to 
punitively attack certain employees than for post-accident 
investigations, and that is just unacceptable to us.
    Finally, some things do come down to dollars and cents, at 
least for Amtrak, which cannot continue to survive on the 
funding that it receives. What we spend on passenger rail is 
embarrassing when compared to China, the U.K., France, Austria, 
and even India, Russia, and Turkey. We cannot expect Amtrak to 
run a first-class railroad if it is funded at third-world 
levels.
    We cannot expect reliable performance from infrastructure 
that is 75, or 100, or even 125 years old. Our transportation 
infrastructure is crumbling around our feet, including Amtrak, 
yet Amtrak is a good investment, a necessary resource, and 
shortchanging Amtrak creates other costs elsewhere. I strongly 
urge you to provide the resources necessary for Amtrak to 
thrive and grow and not to just limp along.
    I appreciate the opportunity to address you today. We have 
worked with this committee to accomplish much to enhance rail 
safety, and I look forward to working with you to implement the 
lessons learned from Amtrak 188.
    Thank you again for the invitation, and I will answer any 
questions that you may have.
    Mr. Shuster. Thank you very much, Mr. Pierce.
    We will start with a round of questions. And I would 
encourage all Members to--there is a lot of interest. This is 
an important topic. So I would encourage you to keep to 5 
minutes. If the interest remains high, we will consider doing a 
second round of questions. So, again, please respect the 5 
minutes. There are a lot of folks here that I think are going 
to ask questions, and I will be quick with the gavel. So watch 
the clock.
    I will start off, Ms. Feinberg, in December of 2013, with 
the Metro-North commuter train derailment, it was a very 
similar circumstance. The train was going too fast. And the 
accident required the--or the FRA required Metro-North to put 
the codes into the ATC system to automatically slow the trains 
going at those speeds. And now you just issued an emergency 
order that literally cuts and pastes that order from 2 years 
ago to be put on Amtrak.
    It seems that the next logical step--and I think you said 
this--is right now you are going to look at all the curves. But 
don't you think they should have done that after the Metro-
North derailment, should have put out orders, FRA to say--I 
know you weren't there at the time. But wouldn't that have been 
the logical step at that time to say let's look at the 
Northeast Corridor, let's look at the curves?
    Ms. Feinberg. Well, what we actually did at that time was 
we put out a safety advisory urging commuter railroads to take 
a look at their curves and to see if there were additional 
steps that they should take. The emergency order that went out 
at that time was aimed at Metro-North.
    And I know, as you know, emergency orders are very narrow. 
They cannot be particularly broad. They have to be legally 
sustainable and enforceable. And at the time, the FRA looked at 
expanding that emergency order to many other railroads, to all 
commuter railroads and deemed that it would not be legally 
enforceable and that we did not have evidence to show that we 
had this problem elsewhere.
    As you may remember, Metro-North had a series of fatal and 
nonfatal accidents. They seem to have a systemic safety culture 
problem. And when we looked beyond Metro-North, we did not feel 
that this was a systemic problem with other railroads. We were 
not seeing derailments at other railroads. We were not seeing 
engineers at high speeds. And so we believed the emergency 
order aimed at Metro-North would only be enforceable for Metro-
North. We did a safety advisory aimed at others.
    Mr. Shuster. Right. Legally, you thought you didn't have 
the ability to do the Northeast Corridor?
    Ms. Feinberg. That is correct.
    Mr. Shuster. Well, does the E.O. today, are you able to 
enforce it throughout the Northeast Corridor, have them look at 
it, or do you have legal problems there?
    Ms. Feinberg. The E.O. that went out last week was--or, I 
am sorry--10 days ago was aimed specifically at Amtrak. We are 
now looking beyond Amtrak to see if we want to take similar or 
other steps aimed at other commuter railroads, but we wanted to 
act quickly aimed at Amtrak, and now we are looking at what 
else should be done beyond that.
    Mr. Shuster. So only Amtrak?
    Ms. Feinberg. For the emergency order, correct.
    Mr. Shuster. Does that mean that you have the authority to 
tell Connecticut and Massachusetts, which have State-owned 
lines, are they able to be included in that, or do you have 
legal problems with that?
    Ms. Feinberg. That would not work for the emergency order 
that is currently out but that is what we are looking at right 
now for next steps.
    Mr. Shuster. See if you can include them, OK.
    Mr. Boardman, Positive Train Control. You said in your 
statement you are committed to getting it by the end of the 
year. Can you talk a little bit about the process you have been 
going through the last couple of months? I know we had this 
conversation about spectrum. That really was the last step of 
the equation. Can you talk a little about the cost and the 
money? You have the money. And can you talk a little about the 
spectrum?
    Mr. Boardman. We, at this point in time, do have the 
Positive Train Control installed on the Northeast Corridor. All 
sections that we own on the Northeast Corridor spine. What we 
have learned, along with the freight railroads, that the 900-
megahertz system that exists right now really wasn't providing 
the kind of reliability and was having even more difficulty in 
high-density areas. So the decision was, by all railroads, that 
we needed to go to a 220-megahertz kind of radio system. That 
really provides a much better propagation of the signal, and a 
much more reliable service.
    So we finally received approval for the 220-megahertz 
system within the last couple of months, and we have to test 
it. We have to get the data radios ready. And that is what we 
are doing now. So that is where we are.
    Mr. Shuster. And you learned that because you had PTC 
operational from New Haven to Boston; is that correct?
    Mr. Boardman. That is correct. Along with PTC we had in 
Michigan.
    Mr. Shuster. That is where you learned the lessons from 
that. And then the entire stretch from Washington, DC, to 
Boston will be under that new increased megahertz?
    Mr. Boardman. For everything that we own or control.
    Mr. Shuster. Right. Right. Right.
    What would Massachusetts and Connecticut with the State-
owned----
    Mr. Boardman. There is a section between New York and New 
Haven; New Rochelle, actually, to New Haven that we don't own 
or control. That is owned by New York State and by Connecticut, 
under control of Metro-North.
    Mr. Shuster. Thank you very much.
    Seeing my time is expired in the 5-minute rule, I turn to 
Mr. DeFazio.
    Mr. DeFazio. I thank Mr. Chairman.
    Mr. Hart, you implied, and you didn't expand upon it, that 
you are going to look at the cars themselves, whether or not 
more resilient cars could better protect passengers in crashes; 
is that correct?
    Mr. Hart. That is correct.
    Mr. DeFazio. Have you looked at that previously?
    Mr. Hart. Yes, we have been looking at passenger car 
crashworthiness for quite a few years.
    Mr. DeFazio. Mr. Boardman, I believe these cars are what 
era? 1970s?
    Mr. Boardman. Yes, sir. They started being delivered in 
about 1975.
    Mr. DeFazio. And have you asked to replace them?
    Mr. Boardman. We have a plan to rebuild these cars and we 
are replacing some cars at this point in time, the ones that 
were built in the 1940s.
    Mr. DeFazio. In the 1940s?
    Mr. Boardman. Yes, sir.
    Mr. DeFazio. Yeah. OK. And are you going to somehow improve 
their resilience in the case of a crash?
    Mr. Boardman. Our expectation is to be able to use crash 
energy management, which is something that the entire passenger 
industry is beginning to do.
    Mr. DeFazio. But these current cars don't meet that?
    Mr. Boardman. They do not.
    Mr. DeFazio. They do not. And what would that take?
    Mr. Boardman. In terms of dollars or time?
    Mr. DeFazio. Yeah. I mean, have you asked for this money?
    Mr. Boardman. If we asked for replacement of all the 
equipment we have, we are probably talking $3.5 billion to $4 
billion.
    Mr. DeFazio. Have you made a request?
    Mr. Boardman. We have made requests for rebuilding, and we 
have made some requests for replacing.
    Mr. DeFazio. OK. And what happened to those requests?
    Mr. Boardman. The requests for replacing was a complex 
request, because if they were long-distance trains or they 
weren't receiving enough revenue for us to be able to pay 
back----
    Mr. DeFazio. But the bottom line is, were you allocated the 
money or not?
    Mr. Boardman. No, sir.
    Mr. DeFazio. OK. So Congress denied you the money?
    Mr. Boardman. Yes, sir.
    Mr. DeFazio. OK. So, again, back to Mr. Hart, do you 
believe that we could either rehab these cars he is talking 
about in a way that would increase resilience and 
survivability, or do you think they need to be totally 
replaced?
    Mr. Hart. Thank you for the question. That is one of the 
things we will be looking into, and we will look into it here 
just as we did with the WMATA accident, in terms of the 
crashworthiness of their cars. We are looking into what it will 
take to improve----
    Mr. Shuster. Pull your microphone closer, please.
    Mr. Hart. I am sorry. We are looking into the 
crashworthiness of the cars for this accident as we did with 
the 2009 WMATA accident. We don't know yet whether we would 
recommend new cars or whether these can be retrofitted.
    Mr. DeFazio. OK. When I look at photos of--I mean, the 
locomotive looks pretty intact, and, of course, that is new 
construction and the engineer obviously survived. Yet, that 
first car never seen--and I heard some first responders say 
they had never, ever dealt with anything like that before. So, 
I mean, that implies--are there, in other nations or elsewhere 
around the world, where they have modern railroads, do they 
have more crashworthiness in their passenger cars?
    Mr. Hart. That will be part of our investigation as to what 
other countries are doing in this respect. We are very 
concerned about making sure that we are the leading edge of 
crashworthiness for our passenger cars.
    Mr. DeFazio. OK. Ms. Feinberg, on Positive Train Control, I 
appreciate what you said about you are going to push really 
hard. Commuter railroads are one of the greatest laggards here, 
and they have asked for help from Congress. Congress has not 
been forthcoming. How are we going to deal with the commuter 
railroads? Many of those operate on a margin or at a loss now 
to get this technology installed.
    Ms. Feinberg. That is right. We have asked for $875 million 
to assist commuter railroads in implementing PTC. We have also 
opened up the RRIF program for railroads who are looking for 
loans that will assist with PTC implementation. So we just 
completed work on a, I believe, $967 million loan to MTA that 
will assist with PTC implementation.
    And then as we approach the deadline, one of the things we 
have asked the Congress for authority for previously is to work 
with railroads who absolutely won't miss the deadline--or who 
absolutely will miss the deadline, to work with them to raise 
the safety bar in the interim while they are still working to 
implement PTC.
    Mr. DeFazio. So would they adopt some sort of interim 
operating changes to compensate for the lack of Positive Train 
Control?
    Ms. Feinberg. Exactly, and they would have to go through an 
approval process and work with us. We would continue to hold 
their feet to the fire to make sure we were working towards PTC 
implementation.
    Mr. DeFazio. And when you looked at a staffed process, 
those who are really trying and have been delayed by the FCC or 
otherwise versus those who just haven't tried at all?
    Ms. Feinberg. I would expect it would be merit-based, 
correct.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    Subcommittee Chairman Denham for the next round of 
questions.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Boardman, what operational changes has Amtrak made 
since the accident?
    Mr. Boardman. Could you ask that question----
    Mr. Denham. In the last 3 weeks, what operational changes 
has Amtrak made, and will Amtrak be instituting more training 
in other efforts to ensure engineers are following all speed 
limits?
    Mr. Boardman. We did the code change on the northbound 
section of the Frankford curve as requested by the FRA. We have 
been evaluating the rest of the curves as required by the FRA, 
and also checking our entire Northeast Corridor to ensure that 
we had speed limit signs along the way, which all met the 
requirements of the emergency order. So we have done that.
    In terms of how we check on our engineers, we have a very 
robust and regular method for that. For example, just since 
January 1, 2014, we have had over 16,000 speed checks of 
engineers along the Northeast Corridor. So that is like 35 
times a day that we check somebody along the Northeast Corridor 
to make sure that they are operating at the right speed.
    We have a recurrent training program, a block training 
program that lasts for a week every year for each engineer. And 
they have to be certified on a biannual basis. So we continue 
to do that. Any kind of changes that occur, we continue to 
provide additional training for engineers.
    Mr. Denham. Thank you. And how many curves does Amtrak now 
have after doing this audit that have ATC? How many do you 
still have that don't have it that you want to implement the 
ATC on?
    Mr. Boardman. After the Back Bay accident and the consensus 
for what we needed to accomplish, they identified six curves, 
one of those was the southbound section of the Frankford curve. 
Since FRA requested us to look at it under the new 
circumstances, we have identified at least four more at this 
point in time. We have 300 curves on the Northeast Corridor 
that could meet the newer conditions, and we are moving forward 
with those.
    Mr. Denham. One of the questions that has continued to come 
up, we have done the passenger rail reauthorization bill, we 
have funded it fully under this committee. What guarantees do 
we have that the Northeast Corridor profits will actually be 
used to implement new safety and PTC regulations?
    Mr. Boardman. The way that we have worked with the 
committee on how we are developing a program is to make safety 
decisions on safety issues. And funding decisions are really 
about the larger scale of infrastructure, not only for the 
railroad, but for highways and for aviation, which I have been 
talking about for several years at this point in time and the 
necessity for increases in that way.
    Safety decisions, we are making those decisions and making 
sure that we provide safety decisions.
    Mr. Denham. I guess, the fundamental question is, when we 
pass a broad bill like that, what types of guarantees would 
there be on the priorities of those spending patterns? Last 
year, Amtrak spent $350 million on new cars. That may be an 
important issue, but the question would be, is it a priority of 
Congress, and is it a priority of Amtrak, and do those 
priorities align?
    Mr. Boardman. We think they do, Congressman. We work 
regularly with the staff of the committee. We work with the 
FRA. We work with all of those who are interested both in 
safety and the improvements along the Northeast Corridor. The 
sufficiency of funding if we do all the things that we want to 
do, there is always scarce resources, so we have to make those 
decisions based on those scarce resources. But we don't reduce 
the idea that we need to have a safe railroad. We make safe 
decisions along the way.
    Mr. Denham. Thank you. And my time is nearly expired, but 
before I yield back, let me just thank you for your efforts, 
Ms. Feinberg, FRA, NTSB, as well as the mayor of Philadelphia 
all coming together for a very, very rapid response. I 
appreciate not only the collaboration, but certainly the 
timeliness, and I know, speaking on behalf of Mr. Capuano and I 
being able to tour that with you and help to understand how we 
can resolve these problems in the future.
    Thank you. I yield back.
    Mr. Shuster. Mr. Capuano is recognized for 5 minutes.
    Mr. Capuano. Thank you, Mr. Chairman.
    And I want to thank the panel for the testimony it had. It 
is a very thoughtful and very difficult decision to make on how 
to prioritize.
    Mr. Hart, I would like to ask you, has the NTSB taken a 
look--and I am not so sure you have, and I am not even sure you 
should--have you taken a look at the decisions on 
prioritization of the PTC, or is that beyond the scope of your 
normal activities?
    Mr. Hart. We would look at the specific event that we are 
investigating and determine what needs to be done to prevent 
that event from happening again.
    Mr. Capuano. But you wouldn't be in the business of 
determining whether the prioritization made by Amtrak or 
others--PTC--let's assume everybody did PTC tomorrow. It can't 
be implemented tomorrow. Every single rail company in the 
country would have to make a determination, what do we do 
first, second, third, fourth, fifth. That would not be the 
normal purview of the NTSB?
    Mr. Hart. That is correct. We would look at what needs to 
be done, i.e., PTC implementation, not how it's implemented.
    Mr. Capuano. That is fair enough. That is what I expected.
    Ms. Feinberg, I am just curious, do you agree with Mr. 
Boardman's comments that Amtrak will reach the December 2015 
deadline to get PTC in the entire Northeast Corridor?
    Ms. Feinberg. We see no reason why they will not meet that 
deadline. We believe they will.
    Mr. Capuano. And do you have any estimate of timeframe for 
the rest of the Amtrak system beyond the Northeast Corridor?
    Ms. Feinberg. Well, beyond the Northeast Corridor, other 
than in Michigan, that the Amtrak service will be dependent on 
freights implementing PTC, and so that could take some time.
    Mr. Capuano. Do you have any estimate of the costs of that?
    Ms. Feinberg. The cost is well into the billions. Billions 
have been spent, and they have got billions further to go.
    Mr. Capuano. So it would be multiple billions of dollars to 
the rest of the Amtrak system?
    Ms. Feinberg. Yes.
    Mr. Capuano. And what about the rest of the Class I freight 
railroads? How much would that cost to get from where we are to 
full implementation? Do you have any estimate on that?
    Ms. Feinberg. I actually thought that was the question you 
were just asking, so again, billions.
    Mr. Capuano. So that would be all the Class I including 
Amtrak?
    Ms. Feinberg. Yes.
    Mr. Capuano. What about the short lines? Are they going to 
be implementing Positive Train Control, or is it just for the 
Class I's and Amtrak?
    Ms. Feinberg. For Class I's and for passenger railroads.
    Mr. Capuano. So the short line freights will not be doing 
it?
    Ms. Feinberg. We are working with the short lines a bit 
separately.
    Mr. Capuano. What about commuter rail?
    Ms. Feinberg. Yes.
    Mr. Capuano. Will they be doing it?
    Ms. Feinberg. Yes.
    Mr. Capuano. What about subway systems? I know that is not 
necessarily in your purview. I know that would be the FTA, but 
I would hope that the FTA would be working with you on that.
    Ms. Feinberg. We work closely with the FTA and they work 
closely with their organizations.
    Mr. Capuano. So the final analysis, even if, under the best 
case scenario, the Government was flush with money and every 
private rail company were flush with money, it would take 
multiple billions of dollars and many years to get from where 
we are to where we want to be on Positive Train Control across 
the Nation on every line. Is that a fair assessment?
    Ms. Feinberg. Well, I would certainly agree with you on 
multiple billions with a ``B.'' But in terms of multiple years, 
I mean, I worry that we are approaching that position, but we 
believe that there is a congressionally mandated deadline for 
December 31, 2015. We intend to enforce against it. This is not 
a new requirement for railroads.
    Mr. Capuano. Fair enough.
    Mr. Hart, have you taken a look on this accident whether 
seatbelts would have helped or not?
    Mr. Hart. That is part of our passenger survivability 
investigation. Yes, we are looking at that.
    Mr. Capuano. So that would be part of your final report 
when you have one?
    Mr. Hart. Yes.
    Mr. Capuano. Because I just rode the train up to 
Philadelphia with Mr. Denham. There are no seatbelts on the 
train. Yet, I flew down here today from Boston; I had a 
seatbelt. I had a seatbelt on the entire time. And it would 
strike me that I don't know--had no idea--and I am looking 
forward to your report--that seatbelts would be something that 
should be considered both to prevent death and injury.
    Mr. Hart. We will be looking at that as part of the 
survivability aspect.
    Mr. Capuano. Ms. Feinberg, if the NTSB were to recommend 
seatbelts in passenger trains, would that be something you 
would pursue?
    Ms. Feinberg. It would certainly be something that we would 
look at that. There are different opinions about the 
requirement of seatbelts on trains.
    Mr. Capuano. Different opinions?
    Ms. Feinberg. Yeah. While I recognize that seatbelts might 
seem like a good solution in the event of an accident, there 
are also people who tend to be up and walking around between 
cars during an accident. And the fact that you would have to 
harden the seats in order to put seatbelts into the seats----
    Mr. Capuano. I understand. I am concerned about whether 
they should be put into current configurations. But I would 
suggest that people that have concerns about the seatbelts talk 
to the people at NTSB about automobiles, about planes. I 
understand, again, maybe their current configuration might need 
to be addressed over time. But the concept of seatbelts, again, 
I was under the impression it was no longer debatable that 
seatbelts in an accident at high speeds on any mode of 
transportation preferable to no seatbelts. If that is the case, 
maybe I will take mine out in the car too.
    Ms. Feinberg. We would certainly work closely with the NTSB 
just as we do on every recommendation, but there is a belief 
that the hardening of the seats that would be required in order 
to put seatbelts onto trains would actually cause more injuries 
in an accident.
    Mr. Capuano. So we are back at it again. It is a cost-
benefit analysis how many people have to die or get injured 
before we take the next step. The same question we had with 
automobiles 100 years ago, the same question we had with 
planes, and now we will go through trains now.
    Ms. Feinberg. No, sir, not a cost-benefit issue. It is 
simply, how do you keep the most people inside the car safe.
    Mr. Shuster. Thank you.
    With that, Mr. Duncan is recognized for 5 minutes.
    Mr. Duncan. Mr. Chairman, thank you very much.
    Ms. Feinberg, last week Secretary Foxx appeared to agree 
that this accident was not necessarily caused by a lack of 
funding. In fact, his exact quote was, ``I don't think you can 
categorically say that more funding would have changed 
things.'' Do you agree with that statement?
    Ms. Feinberg. I think he was referring to the actual 
behavior of the engineer. I do think there are consequences to 
funding issues, yes.
    Mr. Duncan. All right.
    Mr. Boardman, I noticed that total operating revenues of 
Amtrak have gone up from $2.4 billion to $3.1 billion over the 
last 5 years, about a $700 million, or roughly a 20-percent 
increase in funding. And that on top of that, the Federal 
Government has given you $1.4 billion in additional funds each 
year.
    And I am wondering, I am assuming that you felt that Amtrak 
was moving fast enough in installing Positive Train Control 
because you said in your testimony that you were ahead of every 
other railroad; is that correct?
    Mr. Boardman. We are ahead of every other railroad.
    Mr. Duncan. And I am also assuming that you were shocked by 
this accident because you testified that it has been 28 years 
since you had a derailment-caused fatality or fatality caused 
by a derailment. So railroad passenger travel is still about 
the safest method of transportation; is that correct?
    Mr. Boardman. We believe that, yes.
    Mr. Duncan. And did you ever tell this committee or the 
Congress that you didn't have the funds to move fast enough on 
installation of Positive Train Control?
    Mr. Boardman. We did not.
    Mr. Duncan. All right.
    Ms. Feinberg, what enforcement actions would you take 
against railroads that aren't moving fast enough, and would a 
railroad be given credit? For instance, if one railroad is a 
little bit behind another railroad in installation, but they 
have a better safety record, or maybe they have the best safety 
record of any railroad, would they be given credit for that 
good safety record?
    Ms. Feinberg. We are having an internal conversation at FRA 
now about how exactly we will plan to enforce against the 
deadline. Just as we discussed previously, there are--some 
railroads have behaved here better than others, certainly, and 
we don't want to punish railroads that are farther ahead for 
the behavior of railroads who have not done any work on 
implementation at all. So we are having an internal 
conversation. We have got discretion within the statute on how 
we enforce against the deadline to include anything from very 
little enforcement to daily civil penalties.
    Mr. Duncan. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Duncan. With that, Mr. Sires is 
recognized for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman. You know, I ride the 
Amtrak just about every week. I ride the Amtrak just about 
every week, and this accident really hit home. Ms. Feinberg and 
Mr. Boardman, can you speak to the future of Amtrak and 
passenger rail that Congress continues to use patchwork 
approach to form the improvements?
    Mr. Boardman. Well, I would like to, Mr. Sires, say, and I 
have said many times, and specifically to the chairman, I 
think, that my concern has been the reliability of the 
railroad. The reliability of what we do for our hardware on our 
catenary system, the reliability of our use of tunnels, whether 
it is in New York or whether it is through the Baltimore 
tunnels, that our reliability on the Portal Bridge that is 
ready to be rebuilt, that doesn't always shut properly. So the 
funding for infrastructure on the Northeast Corridor is 
absolutely behind the curve.
    In the last reauthorization of our funding in the PRIIA 
Act, there was a commission that was established of all the 
States, the Federal Government and Amtrak, along the Northeast 
Corridor, and that is where the $21 billion backlog really came 
from; the necessity for us to rebuild an equity investment in 
this corridor.
    We also have the requirement because of the growth of 
traffic on this corridor. We are handling over 2,000 trains a 
day on the corridor, and we need more capacity, which means we 
need some new assets as well; some new tunnels into New York; 
another new bridge going into New York, especially; and we need 
to fix this Baltimore choke point that we have along the 
corridor.
    So from my perspective, that is where the funding is really 
needed. We make safety decisions based on safety. And the 
infrastructure decisions were being made based on the available 
funds.
    Mr. Sires. Thank you.
    Mr. Hart, I just can't understand. This is 2015, and we are 
still analyzing whether the seatbelts would have made a 
difference. You know, I certainly agree with Congressman 
Capuano that all these cars, planes--they have shown that it 
works. And I don't understand why in 2015, we are still 
analyzing this. And in terms of people walking around in the 
train, I mean, people get up and walk on the plane too, right, 
but you take your life in your hands sometimes when you walk 
around these trains back and forth.
    So Mr. Hart, can you answer that? I mean, I just don't see 
why we have to analyze this anymore. We are now analyzing this 
thing to what?
    Mr. Hart. Thank you for the question. We are looking at the 
total situation, not just the seatbelts but also the integrity 
of the seats themselves as Administrator Feinberg mentioned. 
There were several seats that detached from the floor. We are 
looking at the totality of circumstances regarding how to 
protect the occupants.
    Mr. Sires. Well, I got to tell you, I mean, looking at the 
seats, it just seems logical to me that seatbelts would make a 
difference. And to wait to analyze it more and more and more, I 
don't get it. I mean, I would be comfortable wearing a 
seatbelt. And I go on that train Mondays and Tuesdays and 
Thursdays and Fridays. I don't see it, we have to wait for 
this.
    Ms. Feinberg, can you talk to that?
    Ms. Feinberg. In my experience, the NTSB is not shy about 
recommending improvements to safety. And so we will work 
closely with them, and anything that comes out of this accident 
we will work very closely.
    Mr. Sires. Would you say this is one of the cheapest 
recommendations that you can make?
    Ms. Feinberg. On seatbelts?
    Mr. Sires. Yes.
    Ms. Feinberg. No. I would not.
    Mr. Sires. It is more expensive than all the other 
recommendations?
    Ms. Feinberg. It is implementing seatbelts. And, again, you 
know, I will be deferential to Mr. Hart here, but implementing 
seatbelts on trains would require the change of every seat, 
which would--again, expense is not the priority here, but we 
would have to harden all of the seats.
    Mr. Sires. OK. Thank you, Mr. Chairman.
    Mr. Shuster. That would cost billions of dollars?
    Ms. Feinberg. Yes.
    Mr. Shuster. OK.
    Mr. Mica, I recognize you for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    First of all, Mr. Hart, I have a copy of the Metrolink 
crash report from 2008. You are familiar with that?
    Mr. Hart. Yes, I am.
    Mr. Mica. And in that, you had two recommendations, major 
recommendations. One that we have cameras installed, inward-
looking cameras?
    Mr. Hart. Yes.
    Mr. Mica. That was in 2008. And then you also had the 
Positive Train Control recommendation, correct?
    Mr. Hart. Yes.
    Mr. Mica. I want to talk about both of those.
    First of all, let's go back to this 2008 report. If you 
just look at it, that wasn't the first time you recommended 
cameras or audio devices in the cab, is that correct?
    Mr. Hart. That is correct. It goes back several years 
before that.
    Mr. Mica. In fact, in this report, you have 1997, after a 
1996 crash and no operating crewmember survived, that was an 
Amtrak train near Silver Spring, Maryland, February 16, 1996, 
you recommended. That is R-97-9 recommendation. Then you had 
another accident with no surviving crewmembers that occurred in 
1999 in Bryan, Ohio. Is that correct? And the recommendation, 
which is R-97-9 to the FRA.
    The first one was to NTSB recommended to the FRA that they 
install these devices. Then the second one was back in 1999, it 
says also recommended that the FRA install this. Then your 
recommendation in 2005, there was a crash of a CN freight train 
in Anding, Mississippi, NTSB made the following recommendations 
to FRA. Is that correct, sir?
    Mr. Hart. Yes, that is correct.
    Mr. Mica. R-07-3.
    What did FRA do, Ms. Feinberg?
    Ms. Feinberg. Previously, the FRA has not taken action on--
--
    Mr. Mica. They did not take an action in any of these. OK. 
And then the 2008 was also a recommendation. They did not take 
an action on that either, is that correct?
    Ms. Feinberg. That is correct. Our recent actions on 
inward-facing cameras----
    Mr. Mica. In fact, it is been very difficult--in fact, 
since then, many of the freight rails have installed those 
devices. Are you aware of that, ma'am?
    Ms. Feinberg. Yes, sir.
    Mr. Mica. Yes. In fact--but it has been difficult. In fact, 
they have had to go through lawsuits. I want this to be entered 
into the record. Here is--Kansas City Southern was attempting 
to put into--cameras in the cab. They were sued by Mr. Comstock 
and his group. Not only were both unions fervently opposed to 
KCS lawsuit; they will be asking the court to enjoin them from 
going ahead with the plan.
    Could we put that in the record, please? OK. I ask 
unanimous consent.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T4806.005
    
    Mr. Mica. All right. That's cameras and a little bit of the 
history and nothing being done.
    Let's talk about financing that is in Positive Train 
Control. You just recommended you are going to have FRA 
financing available?
    Ms. Feinberg. The RRIF program does have financing 
available. MTA has----
    Mr. Mica. Since 2012, how many RRIF loans have there been?
    Ms. Feinberg. I believe there have been three.
    Mr. Mica. Two up till this year, I think. Well, a total of 
three.
    The joke is there is more FRA Administrators--we have had 
more FRA Administrators than we have had RRIF loans. So you 
have the capability to loan money. If you need adjustment on 
that, you need to get to us. In fact, the private sector has 
the responsibility for installing Positive Train Control. They 
have actually run into some problems, haven't they, with FCC? 
So another Government agency has actually delayed this.
    This is part of a--part of the problem was, I think, Native 
Americans, and also approval by FCC of those requests for 
licenses. Isn't that the truth?
    Ms. Feinberg. For the----
    Mr. Mica. Yes. So it is not all the freight railroads. Some 
of it has been delayed. I would like submitted for the record 
to also show that there have been problems with FCC.
    [The information follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Mica. In fact, do you know how many licenses FCC has 
done per year approved on average?
    Ms. Feinberg. I do not know how many per year.
    Mr. Mica. They do 20--they do around 2,000 a year. Do you 
know how many the freight company has been required to have 
approved and get approved so they could get this stuff 
installed by the end of the year?
    Ms. Feinberg. In terms of antennas?
    Mr. Mica. It is 20--22,000. So there is a little bit of a 
backlog. And it is not right to penalize the freight rails for 
delays that are by an agency and things beyond their control. 
So when you say you are going to take them to task, I don't 
think that that is the right thing to do.
    Just give disparity here, Mr. Chairman. Give me about 10 
more. I yield back the balance of my time at this point.
    Mr. Shuster. I thank the gentleman.
    Ms. Norton is recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. The focus here has 
been, of course, on Positive Train Control because it does seem 
like such a silver bullet. I am a little leery of silver 
bullets. And I note that Ms. Feinberg testified that human 
factors continue to be the leading cause of accidents as she 
says on page 6 of her testimony on train accidents. I think 
this train was going--what was it? One hundred fifty miles an 
hour at that curve?
    Ms. Feinberg. 102.
    Ms. Norton. 102.
    Now, Mr. Pierce, on page 6 of his testimony, says that 
although there has been concern about sleep disorders, he 
focuses on poor lineup information and far too many surprise 
calls for work. And he says, ``we have identified these for 
more than a decade. Confirmed data has also shown that variable 
work cycles where engineers move from shift to shift routinely 
contribute to fatigue, yet very little has been done to address 
any of these issues.''
    Mr. Boardman, on November 25th, I wrote you a letter 
concerning the issue of fatigue. And I must ask you today, 
particularly considering that these very tracks carry volatile 
substances as well as passengers, I must ask you about the 
Amtrak proposal to reconfigure work schedules for train and 
engineer service employees at Union Station and in road service 
elsewhere on the Northeast Corridor.
    I would like to know if you are continuing to reconfigure 
these work schedules even after this accident or whether you 
have stood down on those work schedules for the time being.
    Mr. Boardman. The route couplets that were changed along 
the Northeast Corridor remain. And the kinds of difficulties, I 
believe, that were testified to in terms of unpredictable work 
schedules don't really exist at passenger railroads. And unless 
there is unpredictable weather, or if we have a problem out 
somewhere on the long-distance trains, there is a pretty 
predictable schedule that occurs for Amtrak engineers.
    Ms. Norton. So you are mandating 12-hour shifts for a T&E 
employee?
    Mr. Boardman. They are not mandated at 12-hour shifts. They 
have a period of time that they have between the work schedules 
that they have.
    Ms. Norton. Mr. Pierce--let me ask Mr. Pierce.
    Mr. Pierce, would you comment on what Mr. Boardman has 
said, and on this notion of poor lineup and surprise calls to 
work, whether that continues and what the effect has been on 
workers.
    Mr. Pierce. My comments were inclusive of freight and 
passenger. And because freight and passenger, as you say, 
interact on the same tracks, so we view that as a related 
issue. Amtrak jobs are scheduled much more so than the freight 
environment, but there are cases where shift changes that come, 
and people rotate from one shift to another do contribute to 
fatigue. Our comments were intended to at least note the things 
that can contribute to unsafe rail operations, and fatigue is 
one of those. It has been identified by the NTSB for a very 
long time, and it is also that we still try to continue to get 
our arms around.
    Ms. Norton. Could I ask our witness from NTSB whether you 
are looking at fatigue along with the obvious absence of PTC? 
If you are looking at issues of possible fatigue--I am assuming 
we don't have people driving these trains who would just 
ordinarily go 100 and whatever miles around the curve. And I am 
asking you if you are looking at what may have caused this 
engineer to be driving at excessive speed around this curve.
    Mr. Hart. Yes. We typically look at fatigue in all 
accidents. We have been recommending for years fatigue 
management programs that use science-based principles to 
determine issues like shift changes. We know that is difficult 
on the circadian flow of a person's body. So we have looked at 
that for quite a few years.
    Ms. Norton. Have you looked at 12-hour work shifts as to 
whether or not those are consistent with safety and these 
surprise calls?
    Mr. Hart. We have looked at a number of methods of work 
shifts and of cycle--of shift changes, and made recommendations 
that these need to be based on science-based fatigue management 
programs to look at the total picture and base them on science.
    Ms. Norton. Thank you very much.
    Mr. Hart. Thank you.
    Mr. Denham [presiding]. Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. Boardman, I am a little confused. On the PTC we are 
talking about on this track, I think it was a conscious 
decision--well, first of all, you--in your testimony, you said 
on the southbound that instituted, PTC was in place, right, 
Positive Train Control, and on the northbound it wasn't, 
because I think I read a report that it was decision that it 
probably couldn't get enough speed. You said the speed, the 
maximum figure you could get to was 80 miles an hour and 
derailment speed is 93, I think, in your testimony? Is that 
correct?
    Mr. Boardman. No, sir.
    Mr. Gibbs. What was that?
    Mr. Boardman. It is not. It is not PTC, and it is a 
nonacceleration. The maximum allowed speed is 80 miles an hour 
northbound, and the turnover speed on the curve is 98.
    Mr. Gibbs. No, I understand that. But I think I read in a 
report that the reason it was on the southbound--PTC was 
implemented on the southbound----
    Mr. Boardman. Excuse me, sir. I just want you to understand 
it is not Positive Train Control. This is not Positive Train 
Control that we are talking about here. It is Automatic Train 
Control.
    MR. Gibbs. OK.
    Mr. Boardman. It is a difference--a major difference on how 
it operates. That is all.
    Mr. Gibbs. OK. So Automatic Train Control is on the 
southbound track?
    Mr. Boardman. Yes, sir.
    Mr. Gibbs. And not on the northbound track?
    Mr. Boardman. Yes, sir, Automatic Train Control is on both 
tracks, but the code change for the curve was only on the 
southbound track.
    Mr. Gibbs. OK. So when you are talking about the megahertz 
thing, that was a different--that is PTC, not automated?
    Mr. Boardman. When I was talking about----
    Mr. Gibbs. When you were talking about the 900 megahertz.
    Mr. Boardman. Yes. I was talking about Positive Train 
Control there.
    Mr. Gibbs. OK. So we don't have--so for clarity here, there 
is no Positive Train Control on the southbound. It is 
automated?
    Mr. Boardman. Positive Train Control has been installed but 
not yet activated there.
    Mr. Gibbs. OK.
    Mr. Boardman. It is using a code coming out of the 
Automatic Train Control. There are four codes.
    Mr. Gibbs. OK.
    Mr. Boardman. They were really made, initially, for not 
having one train run into each other in a block under the 
automatic block system. It is----
    Mr. Gibbs. OK.
    Mr. Boardman. I am digging into a much deeper piece here, 
but it is not Positive Train Control.
    Mr. Gibbs. I was trying to understand this a little better.
    Also, since this was a new engine, does this engine--this 
train have a capability to gain speed faster than the way it 
was previously thought?
    Mr. Boardman. The new ACS-64s have a different performance 
metric, just like we have three or four different kinds of 
locomotives that are out there that have different 
characteristics. So it wouldn't surprise me that it does.
    Mr. Gibbs. OK. I think back in 2013 in a hearing you told 
Chairman Shuster, one of your bigger--one of the biggest 
priorities for Amtrak was to be the Northeast Corridor or long-
distance services. And I believe you responded that long-
distance services.
    In light of this accident, are you looking to revisiting 
that? I mean--the big question here today is why wasn't PTC 
implemented sooner on this highly traveled Northeast Corridor? 
Were dollars reprogrammed to other areas of the country for 
long-distance services?
    Mr. Boardman. No, they weren't. We made decisions based on 
safety, and we knew what our scheduled time was, and the 
deadline was going to be December 31st of 2015. So we were 
working against that and resolving the problems that we moved 
along with on that process.
    Mr. Gibbs. OK.
    Mr. Pierce, in your written testimony you talk about, you 
take issue with the PTC replacing the second member of the crew 
in the cab. You have a number of accidents cited. In Chairman 
Hart's testimony, two-person crews were determined to--PTC 
would have prevented them, not the two-person crew. Do you 
agree with that or not?
    Mr. Pierce. There is one example cited, I believe, at Red 
Oak, Iowa, that is--that was not a PTC-preventable accident. 
When two trains get into the same block, as we call it, of 
signal, there is no meaningful way for PTC to avoid collision 
in that circumstance. So we do not believe that PTC can 
actually replace the second crewmember, because it doesn't do 
what he does and it isn't always going to prevent a train-to-
train collision.
    Mr. Gibbs. OK.
    Mr. Pierce. The majority of them will be prevented, but not 
all.
    Mr. Gibbs. OK.
    Ms. Feinberg, do you have a--to institute PTC on the 
Northeast Corridor, apparently it is not where I thought some 
of the laws--you know, billions of dollars, cost?
    Ms. Feinberg. I would defer to Amtrak on the actual cost, 
because I think they have--they have predicted it. But I think 
it is less than that just for the Northeast Corridor in terms 
of what they haven't implemented and how far they have to go to 
complete implementation.
    Mr. Gibbs. Mr. Boardman.
    Mr. Boardman. I am sorry. I didn't hear the base question.
    Mr. Gibbs. To put PTC--you said north--my previous 
question, that PTC is not implemented at all in the Northeast 
Corridor or parts?
    Mr. Boardman. It is installed. It is not activated because 
we needed that radio frequency.
    Mr. Gibbs. It is megahertz. OK. So how much--what is the 
estimated cost to----
    Mr. Boardman. $111 million is where we are for the PTC on 
the Northeast Corridor.
    Mr. Gibbs. $111 million. OK.
    Thank you. My time has expired.
    Mr. Denham. Thank you, Mr. Gibbs.
    Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you to the witnesses today.
    I know that, you know, there is still a lot of facts and 
many more questions that we have to examine before we get some 
real answers, but there is some things--and I want to follow up 
with Ms. Norton's comments.
    On May 12th, my understanding, Mr. Pierce, is that the 
engineer who was operating was doing so under a new rule, under 
a new controversial work schedule that began on March 23rd of 
2015, and that included shorter turnaround times on most runs 
that had happened than before March 23rd. And so I guess I am 
just curious as to whether the union or the workers had been 
consulted prior to the implementation of this new work schedule 
as to what they believe the impact would be on them.
    Mr. Pierce. Yes, they have been. The unions are in 
discussions with Amtrak about the scheduling of the workforce 
on the assignments that you are talking about.
    The assignments, as they are in place today, though, as I 
understand it, do not violate the Federal hours of service, and 
they are not restricted by the current contract language. It is 
something that the parties work out between themselves as to 
the best way to assign those jobs, and our representatives on 
Amtrak are the ones involved in those negotiations now.
    Ms. Edwards. And did you express concerns to Amtrak about 
the schedules or about the inclusion of the schedules and the 
new modeling for scheduling?
    Mr. Pierce. I know that our representatives have shared our 
concern over the schedules with Amtrak, yes.
    Ms. Edwards. And do you feel that that has been 
incorporated in the rule that has been in place?
    Mr. Pierce. I am not sure I understand that last question.
    Ms. Edwards. Do you think that the concerns that you 
expressed about including the demands on scheduling issues that 
impact the workers have been appropriately included in the new 
work requirement?
    Mr. Pierce. I don't think the process is completed yet, so 
I can't really comment on what the final product will be. I 
know the parties are discussing it now as to what the 
appropriate assignment and the respite time should be between 
those runs.
    Ms. Edwards. And to Mr. Boardman, can you describe for us, 
if you would, how you incorporate fatigue as an element of the 
modeling when it goes into the work schedules?
    Mr. Boardman. I cannot.
    Ms. Edwards. You don't incorporate it in there, or you just 
don't know?
    Mr. Boardman. I can't describe if we have a modeling for 
fatigue in here. I know in this particular run there were no 
changes. It was the same schedule.
    Ms. Edwards. OK. But in developing the model, what is it 
that Amtrak does to incorporate worker fatigue, engineer 
fatigue in the model?
    Mr. Boardman. In terms of whether we would have sufficient 
rest for the employee, we insure that that is the case. But 
having a model differently from a mathematical model--I am not 
sure of your question.
    Ms. Edwards. OK. So Mr. Hart, when you examine what it is 
that--of the number of things that may have gone wrong, will 
you--how do you look at fatigue and how do you look at the 
modeling for work schedules?
    Mr. Hart. We start with the 72-hour history of the person 
involved and look at what that reflects. If that commands us to 
dig deeper, we will find out what kind of programs the employer 
has that would result in the 72-hour history of this employee. 
And, we would dig deeper. But, we start with the 72-hour 
history.
    Ms. Edwards. Ms. Feinberg, has the FRA engaged in a process 
of implementing recommendations, previous recommendations, from 
the NTSB?
    Ms. Feinberg. On this specific issue, we have done work on 
fatigue and generally for quite some time and are now in the 
midst of working on a comprehensive rulemaking that would 
address fatigue----
    Ms. Edwards. So when----
    Ms. Feinberg [continuing]. Among other issues.
    Ms. Edwards. Because we have done this when there has been 
transit accidents and other things. When recommendations come 
from the NTSB, how do you decide, if it is not a requirement, 
the recommendations? How does the FRA decide whether it is 
going to implement them? Because it seems to me that many of 
these recommendations just kind of remain on a list forever 
until there is an accident, and then we look at the 
recommendations again.
    Ms. Feinberg. Well, I wish it were as easy as the NTSB 
giving us recommendations and us just implementing them. But it 
just doesn't work that way. I mean, we have to enter into a 
rulemaking, or we would have to go into an emergency order, 
which probably wouldn't stand up in court. But, I mean, 
generally, a lot of times we would have to enter into a 
rulemaking that would ultimately take years.
    And there are occasionally some NTSB recommendations that 
we may not agree with, and Chairman Hart and I will write back 
and forth to each other; my predecessor would write back and 
forth to each other to talk about it, and our staff would 
frequently work together to see if we can come together on it. 
But, you know, I think when I arrived at the FRA we had 72 
outstanding NTSB recommendations. I have said that it is one of 
my top priorities to clear the deck. I think we are down to 63, 
and we meet weekly and work to clear the deck every single 
week.
    Ms. Edwards. My time has long expired. Thank you, Mr. 
Chairman.
    Mr. Denham. Thank you, Ms. Edwards.
    Mr. Hanna.
    Mr. Hanna. Thank you.
    Among other things, and there are Members who would defund, 
cut back on Amtrak generally. This accident and this tragedy 
pointed out the importance of Amtrak, I think, in ways that we 
should observe. I think, Mr. Boardman, maybe you can speak to 
that. Because I view transportation of goods and people up and 
down the Northeast Corridor as a system. And what we noticed in 
those days--and you were back at work, I thought, very quickly, 
a matter of days--was a pressure on the highways, on aviation, 
an increase in--tremendous increase in some of those tickets 
and difficulties on the highway.
    I wonder if you, Mr. Boardman, and maybe Ms. Feinberg would 
like to speak to that anecdotally.
    Mr. Boardman. Certainly, Mr. Hanna. I believe that you are 
right. I think that people understood, I think, intellectually 
at first, that shutting down the railroad was going to cause a 
major economic blip for people who wanted to get to work, that 
needed to do business and conduct their work on that particular 
part of the railroad. And then I think they understood it, 
after almost a week, much more emotionally and in their 
pocketbook because of the problems that occurred in that period 
of time.
    They could take 1 or 2 days, but when it became a shutdown 
for that period of time, their personal economy had suffered, 
and the mobility and the business community had suffered, and 
was suffering, from the increase and the number of cars that 
were on the highway and in the inability to even find a seat by 
aviation between----
    Mr. Hanna. I heard tickets over $2,000 from New York to DC.
    Mr. Boardman. I read one of the articles where it was a 
pretty high level. And I think one of the things that the 
aviation people did say was the last seat is always much more 
expensive because the way they price their services. But it was 
definitely a problem.
    Mr. Hanna. Ms. Feinberg.
    Ms. Feinberg. If I am remembering the numbers correctly, I 
think that NEC is a $100-million-a-day entity. And so any time 
service is shut down on the NEC or a portion of the Northeast 
Corridor, it has a dramatic impact, which is why we are 
frequently talking about the importance of making sure that the 
Northeast Corridor is in a state of good repair, and we are 
working on----
    Mr. Hanna. And, of course, we have fully well concluded 
here that it is not in a state of good repair----
    Ms. Feinberg. That is right.
    Mr. Hanna [continuing]. The $21 billion.
    The one bridge that is over 100 years old that pivots, that 
could shut down virtually everything. If the plans are done, it 
could be built, if it were funded, and that is a point in the 
system that could virtually wreck everything for a long, long 
time. So that $100 million a day in a week would be, you know, 
$700 million, whatever.
    Ms. Feinberg. And there are multiple choke points like 
that.
    Mr. Hanna. There are others. Do you know of others?
    Ms. Feinberg. There are tunnels underneath the Hudson, the 
Baltimore tunnel. It just depends on where, but there are 
multiple choke points like that.
    Mr. Hanna. Mr. Hart, just a quick question for you. You and 
Mr. Pierce have a disagreement about audio and inward-facing 
cameras. I can understand both points of view, but I would like 
to give you a minute to maybe explain yours a little more 
thoroughly. Because, clearly, you have a difference of opinion 
over privacy and what Mr. Pierce referred to as un-American.
    Mr. Hart. Yes. Thank you for the question.
    The more we know about what caused the crash, the more 
specifically we can recommend remedy to prevent it from 
happening again. That is the additional information we get from 
video and audio sources that helps us to be more specific about 
what caused the crash and then be more specific about our 
recommendations.
    Mr. Hanna. So would you say, as a public servant, public 
employee, engineer, that it is not too much to ask?
    Mr. Hart. Well, Congress asked us to improve safety, and 
that is one of the ways we are trying to improve safety. We 
think that is a very important----
    Mr. Hanna. Mr. Pierce, your response, just to be fair.
    Mr. Pierce. I think our position on cameras has been 
somewhat misrepresented. The problem that we have with cameras 
is that there is no regulation or legislation in effect today 
that govern their installation, and railroads are running 
programs on their own that they have imposed or implemented 
without consultation from the labor unions or from the people 
who are being filmed.
    Mr. Hanna. So you think there is a way to do this that 
could accommodate everyone?
    Mr. Pierce. We have made, I don't know how many proposals 
both through the RSAC process with FRA, and we have met 
individually with each of the Class I freight railroads to try 
to come up with ways to have a reasonable implementation. We 
have not satisfied our goal yet.
    Mr. Hanna. My time is expired. Thank you, Chairman.
    Mr. Denham. Ms. Frankel, you are recognized for 5 minutes.
    Ms. Frankel. Thank you, Mr. Chairman.
    Well, one of the great things about being sort of at the 
end of the questioning is to get hear all the good ideas. And 
so this is what, so far, I have heard some suggestions: the 
cameras, seatbelts, hardening of the seats for the seatbelts, 
modernizing the cars, more training, more employees, better 
infrastructure, Positive Train Control. And I know that--and I 
join my colleagues in saying, extending sympathies to all the 
folks who lost loved ones and who are injured. And I know 
they're back home are very angry, wanting to know why we can't 
do more; we don't do more. But I think it is pretty obvious 
that--I mean, you give billions of dollars of figures every 
time we mention one of these suggestions.
    So my question is, from a practical point of view, what do 
each of you recommend as the best way to proceed and that will 
keep train travel affordable and recognizing that this Congress 
has put a sequester on itself?
    Mr. Hart. Humans make mistakes. That is fundamental. The 
engineers are very good population of people. They are hard 
working, trying to do the right thing, but they make mistakes 
because they are human. That is not criticism, that is just a 
statement of fact. Humans make mistakes. That is why Positive 
Train Control is the most important single backup to respond to 
human error.
    Mr. Boardman. I will stay on the Positive Train Controls 
for a minute. And I believe we will be done on the spine of the 
Northeast Corridor by the end of this year. That will 
contribute the greatest leap in safety for the Northeast 
Corridor, and Positive Train Control in this Nation should be 
done by this generation of railroaders.
    In terms of the infrastructure on the Northeast Corridor, 
it is no different than what is happening to our Interstate 
Highway System and to our aviation system. We, as a Nation, 
must begin to make an equity investment, even if we have to 
find other ways to do it with third parties, public-private 
financing. It has to occur for the future, or our economy will 
begin to suffer. That needs to happen.
    Ms. Feinberg. In terms of human factors, Positive Train 
Control is the game changer, fatigue management, and bringing 
our infrastructure up to a state of good repair.
    Mr. Pierce. I think the Positive Train Control, because the 
only thing that is not a machine on a locomotive is the crew, 
and they are human. And it would be like walking a tightrope 
without a net not to have PTC, and this comes down to a 
discussion over what level of risk we are willing to take as a 
Nation and how we would fund avoiding that risk.
    Ms. Frankel. And can, whoever wants to answer this 
question, just for the public's purpose, could you explain 
why--what is the difficulty in getting Positive Train Control? 
Is it just the cost? Is it getting the airwaves? Is it the 
technology? What is the biggest obstacle?
    Mr. Boardman. I will take the first stab at it, at least. 
For Amtrak, it has been, recently, the getting the spectrum of 
radio that we really need to ensure the reliability for a 
system that needs to be vital and needs to be failsafe, and 
that has been the holdup. We have moved it quickly now with the 
FCC. The testing will occur, and we will get this done by the 
deadline on the Northeast Corridor.
    Ms. Frankel. So do you believe that the FCC has been 
responsive enough, or could they be more helpful?
    Mr. Boardman. We think they have been very responsive in 
the last couple, 3 weeks, yes.
    Ms. Frankel. Well, how long have you been trying to push 
this through?
    Mr. Boardman. We began to run into problems with this in 
around 2012 or thereabouts that they began to point us to the 
private sector to buy the spectrum.
    Ms. Frankel. Ms. Feinberg.
    Ms. Feinberg. Funding is certainly an issue. Spectrum has 
been an issue. PTC, it is a complicated technology. It 
requires, you know, a back office. It requires the antennas, 
the spectrum, transponders, WASA. It is a complicated 
technology, and it takes time.
    The FRA requires railroads to submit a safety 
implementation plan to us so that we can go over that plan with 
the railroads, provide edits and changes, and so that we can 
work together to get them to a place where they are able to 
implement it.
    We have received one safety plan from a railroad. It was 
more than 5,000 pages long, and it was appropriately long. So 
it is a massive undertaking. It is complicated, and it is 
expensive.
    You know, we were able to get back to that railroad and 
provide them with feedback so they can move forward and start 
implementing, but it is certainly complicated and expensive.
    Ms. Frankel. Thank you very much.
    I yield back.
    Mr. Denham. Thank you, Ms. Frankel.
    And before I recognize Mr. Rice, let me remind Members that 
we have about 20 Members waiting in line with 7 still before 
the gavel, and it is quickly approaching 12 o'clock. So if 
there are any Members that would like to submit their questions 
in writing, this committee would be happy to accommodate them.
    Mr. Rice, you are recognized.
    Mr. Nadler. Mr. Chairman, point of information.
    Mr. Denham. Yes, sir, Mr. Nadler.
    Mr. Nadler. Did you just ask that Members who may wish to 
submit their questions in writing, or are you limiting the 
right of people to ask questions aloud?
    Mr. Denham. We are not dictating when this committee will 
adjourn. We are only saying if there are Members that would 
like to----
    Mr. Nadler. OK.
    Mr. Denham [continuing]. By choice enter any questions in 
writing, we would certainly accommodate them.
    Mr. Nadler. Thank you.
    Mr. Denham. Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman.
    I will start with Mr. Hart. Mr. Hart, we have talked about 
a number of safety measures that could be added that would 
increase safety on these lines and some more expensive and some 
cheaper. We have talked about the Positive Train Control. We 
have talked about adding seatbelts and having to bulk up the 
seats. We talked about inward-facing cameras, among others. 
Between those three, which would be the cheapest to implement, 
do you think?
    Mr. Hart. We don't get into the cost of implementation. We 
just look at what most effectively improves safety.
    Mr. Rice. Thank you, Mr. Hart.
    Mr. Boardman, which would you think would be the cheapest 
among those three?
    Mr. Boardman. Well, for us, because we would already gotten 
the Positive Train Control moving forward, it is not a great 
expense at this point in time----
    Mr. Rice. OK.
    Mr. Boardman [continuing]. In the overall part of it.
    But we don't think that the inward-facing cameras is an 
outrageous cost either. We think that is a more reasonable 
cost.
    Mr. Rice. Pretty reasonably priced thing, right?
    Mr. Boardman. Yeah. It is not off the shelf.
    Mr. Rice. Why would inward-facing cameras increase safety? 
I mean, you are just taking a picture.
    Mr. Boardman. Because we can use them for efficiency 
testing. We can see what is going on with the engineer itself. 
We have actually had----
    Mr. Rice. You think they might change the behavior of the 
engineer some?
    Mr. Boardman. We have a pilot program, and we have a system 
that we operate now, Metrolink, where there is much less stress 
than what the engineers thought they were going to have. And, 
actually, it's really helped----
    Mr. Rice. Stress, huh? Stress.
    Mr. Boardman [continuing]. And other situations.
    Mr. Rice. Ms. Feinberg, among those three; the seatbelts, 
the inward-facing cameras, and the train control, which would 
be the cheapest to implement, do you think?
    Ms. Feinberg. The most inexpensive would be inward-facing 
cameras. I think you would probably get more bang for your buck 
with PTC, but we are moving forward with both.
    Mr. Rice. Mr. Pierce, which one do you think would be the 
cheapest; Positive Train Control, inward-facing cameras?
    Mr. Pierce. I think the jury is out on inward-facing 
cameras. The technology that the freight railroads have adopted 
has not even been measured to crash-worthiness standards. The 
technology failed in several collisions, so the data was not 
available. It didn't provide the post-accident testing that it 
is supposedly being provided for.
    Mr. Rice. Why don't we have inward-facing cameras? I mean 
it's been out; it's been recommended; it's been suggested.
    Ms. Feinberg, why don't we have those now?
    Ms. Feinberg. We do have inward-facing cameras now. Many of 
the Class I's have already implemented inward-facing cameras.
    Mr. Rice. Why don't we have them on all the trains? Why 
wasn't there one on this train?
    Ms. Feinberg. Well, because some have chosen not to 
implement inward-facing cameras. What we are doing is moving 
ahead with the rulemaking, although we may take some interim 
steps to recommend inward-facing cameras and to also put some 
regulations----
    Mr. Rice. Chosen not to. Why haven't they been mandated?
    Ms. Feinberg. Well, the issue has rarely been for us to 
mandate them. It's been that railroads are moving ahead with 
them regardless, and should we put----
    Mr. Rice. Mr. Boardman, why haven't they been mandated?
    Mr. Boardman. I don't have the answer to the mandate. We 
have been supporting that it occur.
    Mr. Rice. Supporting. Why haven't you required it?
    Mr. Boardman. Well----
    Mr. Rice. It would be very inexpensive to put a camera in 
the----
    Mr. Boardman. I have required it at this point. So the 
decision is we are doing that.
    Mr. Rice. Why hasn't it been required till now?
    Mr. Boardman. Because I did not make the decision myself to 
do that. We have been supporting the Railroad Safety Advisory 
Committee and discussing how this should happen.
    Mr. Rice. Who would have argued against putting in inward-
facing cameras?
    Mr. Boardman. A lot has to do with how the data is going to 
be used, and whether it is going to be appropriately used.
    Mr. Rice. You know, is it privacy issues with engineers? Is 
that one of the issues?
    Mr. Boardman. I would have to let the engineers answer 
that.
    Mr. Rice. Mr. Pierce.
    Mr. Pierce. It is not only a privacy issue, it is just as 
Mr. Boardman says, it is the way the cameras are being utilized 
and how they are being implemented. There are no safeguards 
either legislative or regulatory.
    Mr. Rice. Safeguards? All it is doing is taking a picture. 
It is not going to hurt anything. What do you mean safeguard? 
Why wouldn't they have an inward-facing camera? It is a cheap 
way to increase safety. Why would they not have an inward-
facing camera?
    Mr. Pierce. You are suggesting that we are going to change 
behavior, and that suggests there is intentional bad behavior, 
and I would argue that that is inappropriate or not an accurate 
representation. The bottom line is----
    Mr. Rice. Well, we have had proven cases of bad behavior. 
What, 2 years ago there was a driver who said he fell asleep, I 
believe, going into a curve, and people were killed. We don't 
know what happened in this case.
    Mr. Pierce. I don't consider fatigue bad behavior, 
Congressman.
    Mr. Rice. Well, I would think if they are on camera, they 
might be a little more aware of their surroundings.
    Mr. Pierce. I do not think the camera will cure fatigue. It 
will not make you less tired if you are tired.
    Mr. Rice. I suspect that it would be a great increase in 
safety in terms of changing behavior.
    I want to ask one more question.
    Mr. Hart, you said that you were looking at phone data for 
the last 3 weeks, including changes in--it was complicated by 
changes in time zones. How many time zones do you cross in 
Philadelphia on this line?
    Mr. Denham. Mr. Hart, I would ask for a quick response.
    Mr. Hart. Yes.
    The time zones we are talking about are the time zones in 
the phone system. The carrier's systems are based in different 
time zones, and so the time zones we are talking about are the 
time zones in the phone and the carrier's systems not the time 
zones that the train passes.
    Mr. Rice. Thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    Mr. Boardman, I wanted to ask--I feel pretty confident, 
based on your testimony, at least for the Northeast Corridor 
that you are going to be able to complete PTC in a timely way 
by 2015. I wanted to know whether you believe we have the 
resources and technology for Amtrak, at least, to complete PTC 
across the country by 2015?
    Mr. Boardman. Well, Amtrak doesn't have the responsibility 
to actually implement the PTC across the country on host 
railroads for the most part. There have been a couple of Class 
III railroads, one in Kansas City and the other one in St. 
Louis, that believe that we need to be the ones to implement 
Positive Train Control in those communities. The rest of it is 
primarily the Class I railroads. And our part would be to 
implement it in our locomotives. And we will be ready, we 
believe, when they have their Positive Train Control available.
    Ms. Brownley. So Amtrak in California, for example, you 
were saying you are not responsible for PTC there?
    Mr. Boardman. Yes. It is not our line. We are not 
responsible.
    Ms. Brownley. I see. OK.
    Ms. Feinberg, in terms of implementation, are there any 
penalties that would be imposed for railroads that have not met 
the PTC implementation?
    Ms. Feinberg. We have significant discretion in how we 
would impose penalties, but we are having an internal 
conversation, FRA, now about how we will go about enforcing 
against the deadline.
    Ms. Brownley. And when will you complete that task and the 
public would know?
    Ms. Feinberg. In the coming weeks, I would say.
    Ms. Brownley. In the coming weeks.
    And, Ms. Feinberg, I also wanted to follow up with you just 
in terms of your opinion in lieu of sort of full implementation 
of PTC. Do you think two-person crews is something that would 
be an appropriate safety net for the short term? It doesn't 
sound to me like there is going to be full implementation by 
2015. Certainly, the airlines have two crewmembers.
    Do you think that that is something that could be a short-
term or interim safeguard?
    Ms. Feinberg. Certainly, that is one of the things that we 
are taking a close look at, and that we believe could be an 
interim solution, along with probably some additional backstops 
as well. And there are some places where that two-person, two 
people in the cab may not be possible, but you could have 
additional folks on the train communicating back and forth to 
each other.
    Ms. Brownley. And why would two people in the cab not be 
possible in some instances?
    Ms. Feinberg. There is not room.
    Ms. Brownley. There is not enough room.
    Mr. Hart, also the same question to you. Do you believe 
that a two-person crew might be an interim solution before PTC 
is fully implemented?
    Mr. Hart. Our experience is limited. It would be based on 
our accidents. But from that limited experience, we don't find 
that two-person crews are necessarily an improvement.
    Ms. Brownley. And why is that? It just seems to me common 
sense, that if you have two people driving a train, that if one 
person falls asleep, then the other person is there to take 
over.
    Mr. Hart. In theory, that is true, but two people can fall 
asleep; two people can be distracted. But based on our limited 
experience in this and other modes, we are not finding two-
person crews to necessarily be a safety improvement over 
single-person crews.
    Ms. Brownley. Thank you, sir.
    I will yield back, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Brownley.
    Mr. Perry.
    Mr. Perry. Thank you. Is it my understanding you would like 
me to yield some time to you?
    Mr. Denham. Thank you, Mr. Perry.
    Just one quick question for Ms. Feinberg. Safety is, 
obviously, important across the entire country. And in my home 
State of California, PTC has been slow to be implemented as 
well. The sum of $3.7 billion was put to California high-speed 
rail. That money has now been transferred to the Caltrain, to 
electrify Caltrain. It has been transferred to the Transbay 
Terminal, $400 million of that, to help implement that Transbay 
Terminal.
    Why are we not transferring money to do PTC on the 
connector routes in California?
    Ms. Feinberg. We have asked for significant funding for PTC 
implementation for the commuters. You are asking specifically 
if we would transfer money from the high-speed rail authority 
into PTC?
    Mr. Denham. You are using stimulus dollars in many 
different places in California for electrification and for 
changing the terminal, but yet not using it for PTC, which, it 
is my understanding high-speed rail would need PTC. These 
connector routes should have PTC already. Why are we not using 
the money that is going to revert back to the Federal 
Government next year, if it is not spent, if that money is 
available today, why aren't we using it for PTC in California?
    Ms. Feinberg. Well, it will be going to PTC in California. 
Much of our money that has gone out, I think $600 million of it 
has gone towards PTC.
    Mr. Denham. So you are saying it is a priority? You just 
haven't been able to spend it quick enough in California?
    Ms. Feinberg. No. I believe that it will get spent on time, 
by the end of the year.
    Mr. Denham. OK. Just for the record, we are spending 
California high-speed rail dollars, Federal stimulus dollars, 
on many different areas in California to do other things. We 
are far behind on PTC, and it has not been a big enough 
priority to use those stimulus dollars on PTC in California?
    Ms. Feinberg. Sir, if you are asking if we can take 
stimulus dollars that's going to high-speed rail and transfer 
it to PTC, I don't believe that would be in keeping with the 
grant agreement, but we can certainly take a look at it and 
come back to you with a formal response. But I don't think that 
would be in keeping with the grant agreement.
    Mr. Denham. Thank you. I yield back to Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. Reclaiming my time.
    Ms. Feinberg, I just want to establish something. There has 
been an assertion, or at least an implication made in this 
committee that Congress itself, and maybe certain individuals 
of a certain party are responsible financially for the mishap, 
the accident in Philadelphia. So I just want to get the facts 
straight.
    It is my understanding as well that FRA has stated that a 
lack of public sector funding may cause unwanted delays in 
fully implementing PTC. And it also, according to my records, 
would cost about $131.2 million, $131.2 million to fully 
implement Positive Train Control on the Northeast Corridor, the 
track that Amtrak owns.
    Now, over 12 years, they have lost over $1 billion in food 
service. It is also the inspector general's opinion that Amtrak 
paid large bonuses to ineligible management and staff. The 31 
million Amtrak tickets sold last year were subsidized by the 
taxpayers to the tune of $42 to $350 apiece, and this 
particular portion of line makes anywhere from $400 million to 
$500 million a year. It seems to me, plus we give Amtrak, the 
taxpayers fund Amtrak to the tune of $1.3 billion to over $2 
billion dollars a year. How come they can't spend 10 percent of 
what they lost in food service on Positive Train Control, and 
is it Congress' fault that positive train--is it FRA's 
assertion that it is Congress' fault that PTC wasn't funded in 
the Northeast Corridor?
    Ms. Feinberg. Well, on Amtrak, Amtrak has said that they 
will implement PTC by the congressionally mandated deadline of 
December 31, 2015. And we believe that--we agree with them that 
they can meet that deadline.
    Mr. Perry. So it is not a funding issue?
    Ms. Feinberg. Amtrak does not have a funding issue in terms 
of PTC. They have said that they will meet the deadline.
    Mr. Perry. Just to be clear, Amtrak does not have a funding 
issue with PTC by the deadline. So it is not Congress' fault 
that it is not implemented timely? Correct or not correct?
    Ms. Feinberg. Amtrak, specifically, has said that they will 
meet the deadline.
    Mr. Perry. Right.
    Ms. Feinberg. We have had many conversations about the need 
for--or our request of the Congress to give additional 
assistance to commuter railroads to meet the deadline. We have 
also requested additional assistance for Amtrak to meet the 
deadline.
    Mr. Perry. One last question, Mr. Chairman.
    Before I came here, I think about 2009, $800 billion in 
stimulus was passed, and the majority of it was to go to 
infrastructure. If PTC was such a concern, how much was spent 
of the $800 billion, understanding that $131.2 million, a very 
small percentage, if you look at that, would be required to 
fully implement PTC in the Northeast Corridor. How much was 
spent--allocated by this Congress, how much was spent on PTC if 
it is such a priority? Do you know?
    Mr. Denham. Ms. Feinberg, I would ask for a quick response.
    Ms. Feinberg. We will have to get back to you with how much 
of that would----
    Mr. Perry. Thank you, Mr. Chairman. I yield back.
    Mr. Denham. Thank you.
    Mr. Nadler.
    Ms. Brown. I think it is----
    Mr. Denham. Ms. Brown, you are recognized for 5 minutes.
    Ms. Brown. Thank you, Mr. Chairman.
    As former ranking member of the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials, a strong supporter of rail, 
my heart goes out to the families and individuals who have 
suffered in the wake of the Amtrak train derailment that 
occurred recently in Philadelphia. I personally want to thank 
today's panelists for their hard work and dedication--and the 
employees--that they have shown during the terrible disaster.
    Mr. Boardman, I want to particularly thank you for your 
leadership. But my question, I know that you all monitor the 
trains and the rates of the speed. Can you discuss what 
safeguards that you have in place to check the speed of your 
locomotives and engineers?
    Mr. Boardman. Yes, ma'am. We have a regular series--and I 
don't think you were here earlier when I said that we looked 
and we have checked the speed of--we have had 16,000 checks of 
speed since January 1st of 2014. We do that through radar with 
our road foreman, and we do that by downloading the equipment 
in the locomotive to find out what speed they are traveling.
    Ms. Brown. Yes, sir. I was here during the entire time. And 
I heard it. I just wanted you to repeat it again.
    Mr. Boardman. Thank you.
    Ms. Brown. Positive Train Control. That is one and one of 
the most important aspects of safety. What we talked about the 
cars itself, and we talked about the crew. It is a combination. 
Can you expound on that a little bit?
    Mr. Boardman. Certainly. Positive Train Control is a system 
that is layered on top of several systems that we operate 
today, one of them being Automatic Train Control. And we even 
go back, and every time there is a temporary speed change, we 
use a manual system called Form D control system because the 
dispatcher and the engineer has to write down what has occurred 
here. So we use all the way from the manual system all the way 
up to a Positive Train Control system in order to ensure that 
we operate safely, and we do run a safe railroad.
    Ms. Brown. Mr. Hart, other than Positive Train Control and 
the cameras, the facing cameras, what are some of the other 
safety measures do you think we need to put in place?
    Mr. Hart. Thank you for the question. We have heard lots of 
talk about fatigue, and we are looking into that. 
Infrastructure is always an issue in terms of the maintenance 
and the state of good repair. We always are looking at that. So 
we are looking at the totality of circumstances. The best 
situation is for the train to stay on the track in the first 
place, and we want to make sure that happens. Then we want to 
provide some viability for the passengers if the train doesn't 
stay on the track.
    Ms. Brown. Ms. Feinberg, you know, you all acted quickly, 
and I want to thank you all for that. Do you think there is 
additional training that the employees need?
    Ms. Feinberg. That is something that we are taking a look 
at now. When I referred to the potential--the package that we 
are putting together that would address potential human 
factors, that is something that we will be taking a close look 
at.
    Ms. Brown. Mr. Pierce, what are some of your concerns about 
the training of employees for a disaster? And I want to commend 
that the employees did an excellent job. You know, I was 
being--it was being monitored. I started getting calls as soon 
as it happened, and I want to thank you for that. But what 
additional training do you think the employees need a for 
disaster?
    Mr. Pierce. I think the training that the employees receive 
is, in large part, the normal operations type training. 
Disaster training is obviously something that we don't hope we 
will ever have to experience. I am not sure exactly to what 
extent the difference is as to how much actual accident-type 
training that the employees are receiving on Amtrak right now. 
I would have to defer to Mr. Boardman on that one.
    Ms. Brown. Mr. Boardman.
    Mr. Boardman. So what Amtrak does today, it has emergency 
management system. We are working in concert with first 
responders up and down the corridor and across the country with 
police departments. And we have an incident command structure 
that was a requirement in the PRIIA law that we have a family 
assistance program. We have worked with the NTSB to make sure 
that we stand that up properly. And so we depend on those first 
responders in the community such as--and I talked about it 
earlier--Philadelphia in this particular case.
    But we have an ongoing good relationship with them, with 
the FRA, and with NTSB to make sure we have the proper training 
and disaster drills across the country.
    Ms. Brown. My time is running out, but what I would like 
from each of the members in writing, what are some of the 
infrastructure projects that we need in the Northeast Corridor 
like the Baltimore tunnels and other things to make sure that 
we in Congress are doing what we need to do? Because when my 
colleagues try to imply that money is not an issue, money is an 
issue, and some of the tunnels--and we went up on the train, 
and we talked to people along the way. And we know that there 
are many tunnels and infrastructure conditions that need to be 
upgraded.
    Mr. Denham. Mr. Boardman, I would ask for a quick response.
    Mr. Boardman. We will provide that list for you, 
Congresswoman.
    Mr. Denham. Thank you.
    Mr. Rokita, you are recognized for 5----
    Ms. Brown. Mr. Chairman, I would like to not dismiss Mr. 
Boardman, but I would like it for Mr. Hart, Ms. Feinberg, and 
Mr. Pierce, what are some of the infrastructure things you 
think you can access in the Northeast Corridor.
    Mr. Denham. We will provide each of you the questions in 
writing, but we would ask for a response on infrastructure 
needs from each of you.
    Ms. Brown. Thank you.
    Mr. Denham. Thank you, Ms. Brown.
    Mr. Rokita, I recognize you for 5 minutes.
    Mr. Rokita. I thank the Chair. I thank the witnesses for 
the testimony this morning.
    Following up on some questions that might have already been 
asked, I want to go to you, sir, about what seems to be, I 
think in your testimony, a right to privacy in the locomotive 
cab with regard to inward-facing cameras. Is that the position 
of the brotherhood or not?
    Mr. Pierce. I didn't say right to privacy. There are 
privacy concerns about the storage of data. I don't think 
anybody in this room wants to see their last minutes, if they 
are killed in a locomotive collision, floating around on 
YouTube, to be quite honest with you. There are steps that need 
to be taken to make sure that the data is protected and that 
the data is used for what everybody seems to think it should be 
used for, which is post-accident testing.
    Mr. Rokita. Right. But it seems like that is covered in 
other modes of transportation and other industry. Surely that 
could be worked out. You agree. Right?
    Mr. Pierce. To date, it has not been worked out. There is 
no regulation. FRA has started the rulemaking process on 
cameras.
    But until there is a regulation, the railroads are running 
programs, each one independent of the other, and the data 
storage is something that is different on every railroad.
    Mr. Rokita. Right. But however gruesome the photo or 
whatever the situation might be or whatever goes on YouTube, 
when you are on the job, you don't agree that there is a right 
to privacy, do you?
    Mr. Pierce. Well, you are kind of putting words in my 
mouth. Our concerns are many, but----
    Mr. Rokita. It is a yes or no question. I think you might 
have answered it already.
    You don't agree that there is a right to privacy. Correct?
    Mr. Pierce. I don't see it as a yes or no answer. It is 
more complicated----
    Mr. Rokita. There is a right to privacy when you are on the 
job in a locomotive cab.
    Mr. Pierce. There should be a reasonable application of the 
installation of cameras, and we are willing to pursue one. We 
have not been afforded that opportunity yet.
    Mr. Rokita. Do airline pilots have a right to privacy in 
anything recorded on the black box or anything on the ATC 
communications or anything like that?
    Mr. Pierce. It is my understanding that FAA actually made a 
presentation to the RSAC group about the model that the airline 
industry uses and that was at our recommendation because we 
would embrace that. It has not been offered to us.
    Mr. Rokita. OK. But you would embrace it if that was the 
case?
    Mr. Pierce. Yes.
    Mr. Rokita. OK. Great.
    Following up on Congressman Perry's line of questions on 
the $800 billion spent on stimulus projects or other things 
regarding--I am sorry. I have a head in the way.
    Mr. Boardman, do you have any experience or recollection or 
any kind of numbers to give us regarding how much of that $800 
billion was spent on PTC on your railroad?
    Mr. Boardman. $800 billion?
    Mr. Rokita. Yeah. Part of the stimulus package.
    Mr. Boardman. No.
    Mr. Rokita. Any of the subsidized money that was given over 
the last----
    Mr. Boardman. $800 billion is not a number that rings with 
me that--of course, Amtrak would love to have $800 billion. 
Don't get me wrong. But, no, we don't----
    Mr. Rokita. Any stimulus funds whatsoever. How much was 
spent on PTC, in your estimation?
    Mr. Boardman. We did not spend any stimulus money on PTC, 
per se, unless there was some particular part of another 
project that we are doing.
    Mr. Rokita. Why not? It has been the clear testimony----
    Mr. Boardman. Because that wasn't what it was used for. It 
was looking for real investment in the Niantic Bridge, for 
example and, also, rebuilding a whole section of our railroad--
--
    Mr. Rokita. Was there a legal prohibition, in your 
experience, against using stimulus funds for----
    Mr. Boardman. They were really looking for infrastructure 
projects.
    Mr. Rokita. Was there a legal prohibition? Do you know?
    Mr. Boardman. I don't know.
    Mr. Rokita. And, Ms. Feinberg, can you add anything to 
that? Do you think there is a legal prohibition against using 
stimulus funds for PTC?
    Ms. Feinberg. I am sorry. I don't think that there is a 
legal prohibition against--I don't think so.
    Mr. Rokita. Why do you think we didn't use funds for PTC, 
if that is the case? Or do you have any estimation of the 
amount of stimulus funds that might have been used in any kind 
of PTC work?
    Ms. Feinberg. To be honest, to take all of the stimulus 
dollars and give it to Amtrak and Class I's to implement PTC, I 
am not sure that that was something that occurred to anyone. I 
don't think it was even discussed.
    Mr. Rokita. Really? Because it is being discussed like it 
was a no-brainer high priority that has been wanting to be done 
for decades, since 1969.
    And this never occurred to anyone, that you might use some 
of these funds for that?
    Ms. Feinberg. Well, it was the Congress that mandated the 
implementation of PTC by the deadline that we are approaching 
now.
    Mr. Rokita. Right.
    Ms. Feinberg. I do not know if it was a subject that you 
all discussed at the time.
    Mr. Rokita. No. I am asking if you discussed it, anyone in 
the industry. The industry and the regulators are all 
testifying here today that this was such an important provision 
whose concept came about--in 1969 I think is what Ranking 
Member DeFazio stated.
    So in all that interim time and then having the stimulus 
money, no one thought to use that money for PTC or--and now my 
question is: If so, how much was used for PTC?
    Mr. Denham. Ms. Feinberg, we have asked for a quick 
response. But this is another one we would ask in writing: With 
all of the stimulus dollars, why wasn't PTC a priority during 
that spending?
    Mr. Rokita. And, Mr. Chairman, if you can get a date from 
the witnesses as to when they can respond.
    Mr. Denham. Absolutely. We will get that at the final 
testimony.
    Mr. Rokita. If we could get it on the record, that would be 
great.
    Mr. Denham. Ms. Feinberg, do you care to have a quick 
response?
    Ms. Feinberg. I am sorry. Yes. We are happy to get that to 
you all.
    Mr. Denham. Thank you.
    Mr. Nadler, you are recognized for 5 minutes.
    Mr. Nadler. Thank you.
    Mr. Boardman, of the $800 billion of stimulus funds, isn't 
it true that Amtrak got about $1.1 billion total?
    Mr. Boardman. I am sorry, sir?
    Mr. Nadler. Of the $800 billion in stimulus funds, $240 
billion of which was tax cuts, not spending, by the way, isn't 
it true that Amtrak was allocated $1.1 billion; so, we are 
talking about $1.1 billion, not $800 billion?
    Mr. Boardman. I think it was $1.4--$1.3 billion.
    Mr. Nadler. $1.3 billion.
    And, basically, Congress instructed you to spend that on 
projects that were ready to go as fast as possible, 
infrastructure projects. Is that correct?
    Mr. Boardman. That is correct.
    Mr. Nadler. And you spent that on what, in broad terms?
    Mr. Boardman. Niantic River Bridge and some additional 
infrastructure projects.
    Mr. Nadler. Infrastructure, bridges, and so forth, which, I 
assume, had you not spent it on those, there would have been 
safety problems?
    Mr. Boardman. Yes.
    Mr. Nadler. OK. Thank you.
    Now, Amtrak has requested $36.4 million to implement PTC in 
fiscal year 2016. Now, does this go beyond finishing the 
implementation of PTC by the end of this calendar year?
    Mr. Boardman. Yes. This is off the Northeast Corridor. This 
isn't on the spine of the corridor. The spine of the corridor 
will be done by the end of December, but we have other work 
that we need to get done.
    Mr. Nadler. OK. And could Amtrak have implemented PTC 
sooner if it had more Federal funds?
    Mr. Boardman. Had they come a while ago, yes, but not now.
    Mr. Nadler. No. But if Amtrak had had more Federal funds a 
year or 2, 3, 4 years ago, it could have implemented----
    Mr. Boardman. When we would first started, if we had had a 
dependable amount of money to move forward, yes.
    Mr. Nadler. OK. Now, to switch topics for a moment, the 
tunnels into New York have been described as ticking time bombs 
because of damage from saltwater during Hurricane Sandy.
    What is the status of those tunnels? What would happen if 
they were to go out of service? And how much funding is 
necessary to prevent that from happening?
    Mr. Boardman. Well, we found out this winter what would 
happen if they went out of service because we had so much ice 
that we had regular ice patrols that had to knock down the ice 
in one tube or the other.
    And when that happened, you went from being able to move 24 
trains an hour down to 6 trains an hour. So we got a lot of 
complaints from New Jersey Transit and from Amtrak riders that 
they had to wait outside one of the tubes in order to get into 
New York City. So that is exactly what is----
    Mr. Nadler. Going from 24 trains an hour to 6 trains an 
hour, as the only rail access into New York City from New 
Jersey, would have a significant effect on the economy?
    Mr. Boardman. Absolutely.
    Mr. Nadler. Can you quantify that at all?
    Mr. Boardman. I will for you. I will get back to you with 
that answer.
    Mr. Nadler. Please.
    Now, I understand that Amtrak has a $21 billion backlog of 
projects on the Northeast Corridor just to achieve the state of 
good repair. Is that accurate?
    Mr. Boardman. That is what the commission developed and 
produced. Yes.
    Mr. Nadler. Do you have any source of funding for that $21 
billion?
    Mr. Boardman. No more so than what we get each year.
    Mr. Nadler. And how much is in the budget that the House 
just passed?
    Mr. Boardman. $1.39 billion was what we had last year, and 
I think that is----
    Mr. Nadler. No. No. But that is the total. That is not just 
for back projects on the NEC.
    Mr. Boardman. No. Not for just the projects on the NEC.
    Mr. Nadler. So of the $21 billion necessary to just get up 
to a state of good repair on the Northeast Corridor, how much 
was appropriated for that purpose or available for that purpose 
in the amount of funds voted by the House a couple weeks ago?
    Mr. Boardman. There were some dollars that were 
specifically identified for advancing our Gateway Project, but 
not capital dollars for us to actually build it.
    Mr. Nadler. No capital dollars at all. OK.
    So zero over 21. That is a pretty good ratio.
    Now, Ms. Feinberg, we have heard that Amtrak will have the 
PTC, Positive Train Control, in place by the end of the year, 
at least on the spine and a little later elsewhere.
    But what is the status of PTC implementation on other 
passenger rail lines, like Metro-North and Long Island Rail 
Road of New York and other commuter rails? And what would it 
take for commuter lines such as those in the New York area to 
meet the deadline?
    Ms. Feinberg. They are very much struggling to meet the 
deadline. We just completed a loan to the MTA for almost $1 
billion to assist with their PTC implementation. That does not 
reach the deadline. That will go beyond the deadline. But----
    Mr. Nadler. And do we have any estimate as to when the 
commuter rails across the country are likely to be able to 
implement PTC?
    Ms. Feinberg. It varies dramatically, but I would say 
anywhere from 2016 to 2018 to 2020.
    Mr. Nadler. In other words, 1 year to 2 to 4 years after 
the deadline. And we know the possible safety repercussions.
    Let me just say that the transportation appropriations bill 
on the floor this week includes no money for commuter lines, 
such as Metro-North and the LIRR, to install PTC. Amtrak funds 
this out of Federal capital grants, which were just cut by $290 
million.
    Despite the fact that there is a $21 billion backlog to 
achieve a state of good repair in the NEC, we spend about $50 
billion on highways and about $17 billion on aviation and $1.2 
billion on rail.
    There is something very wrong with the appropriations 
process. And for us to sit here and not understand that the 
fact that the Congress has been starving Amtrak has a large 
role to play in what we are talking about is putting our heads 
into the sand.
    I yield back.
    Mr. Denham. Thank you, Mr. Nadler.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    Let me start with Ms. Feinberg. And I want to thank you for 
your time and attention the day following the tragedy, when 
Chairman Denham, Ranking Member Capuano, and myself went and 
visited the site.
    My question to you relates to 49 CFR, part 220, 
Restrictions on Railroad Operating Employees' Use of Cellular 
Telephones and Other Electronic Devices, the final rule in 
which the Secretary essentially delegated to you the duties to 
exercise the authority to prohibit the use of personal 
electronic devices that may distract employees from safely 
performing their duties.
    The FRA study found railroad operating employees were 
increasingly using distracting electronic devices in a manner 
that created hazards. And I am going from the Federal Register 
dated Monday, September 27, 2010.
    And I found this part particularly interesting, and it 
forms the basis of my question: ``Relating to access to 
employees' personal cell phone records, FRA has decided that a 
provision mandating that railroads require operating employees 
to provide access to personal cell phone records in the event 
of an accident is unnecessary for FRA purposes. Instead, FRA 
currently uses its investigative authority to obtain personal 
cell phone records when appropriate.''
    Is that what you are doing now? In other words, it is 
through your investigative arm and that is how you are getting 
the personal cell phone records?
    Ms. Feinberg. That is correct. So following the accident, 
we just subpoenaed those records.
    Mr. Costello. And we have talked a little about inward-
looking cameras, I think is the term.
    If you had inward-looking cameras, would the operating 
engineer--at that point in time, you would be able to ascertain 
whether or not a personal cell phone was being used. Correct?
    Ms. Feinberg. That is one of the purposes of an inward-
facing camera.
    Mr. Costello. Are there concerns that, without the inward-
facing camera there--I did also go through this rule in detail. 
There are times throughout a ride when an operating engineer 
would legitimately be able to look at their personal cell 
phone?
    Ms. Feinberg. The regulation is that the phone should be 
off and stored.
    Mr. Costello. Should be. Right. OK.
    If we had an inward-facing camera, we would know already if 
that were the case?
    Ms. Feinberg. Yes. And the inward-facing camera I think 
would also provide us information after an accident which would 
be useful.
    Mr. Costello. Right. OK.
    Ms. Feinberg. We wouldn't be needing to have this debate at 
the moment.
    Mr. Costello. And so my question next turns to Mr. Pierce.
    I understand that you were, I think, making a distinction 
between privacy concerns and a right to privacy. I sort of 
intuited that from some of your testimony and some of the 
questions that you were answering.
    Can you talk a little bit more about this reasonable 
implementation? Because I am a little concerned when we are 
talking about the privacy concerns of an individual operating 
engineer who would be taped while they are in the performance 
of their duties. Because, essentially, you have to balance that 
against the public safety considerations of the 200- or 300-
plus passengers who were in the train.
    And I think a lot of us are concerned that your testimony 
seems to suggest that we need to really focus on the privacy 
concerns of the operating engineer and not some of the public 
safety assurances and some of the information that would be 
elicited if you had the inward-facing cameras moving forward.
    So I want to give you an opportunity to sort of share with 
us a little bit more what it is about these privacy concerns 
that you hold so dear on behalf of your membership.
    Mr. Pierce. Well, thank you.
    I do want to first comment about the comments that were 
made earlier about litigation when cameras started. The unions 
didn't actually go to court to block cameras. KCS Railroad took 
us to court to install them. So I think the record needs to be 
clear on who actually started the litigation effort in order to 
install cameras.
    The cameras installed so far in the country have been on 
freight railroads, primarily on Class I properties. And those 
cameras run 24/7, whether the train is moving, whether the 
train is stopped, and we have crewmembers that could sit on a 
train for up to 6 hours without moving.
    We have asked that the railroad shut the cameras off if 
there is no safety-sensitive duties being performed, and they 
have refused. That is a privacy concern.
    Mr. Costello. OK. But what about when they are operating?
    Mr. Pierce. Right now they run 24/7. The parts that we have 
taken exception to I am trying to identify. We haven't said 
that there should be an outright prohibition. We have said that 
the implementation has been done in a way that there are 
disputes over it.
    Mr. Costello. Do you believe that there is a sound public 
policy in favor of having an inward-facing camera on the 
operating engineer at all times during the moving of a 
passenger rail?
    Mr. Pierce. I know that that is where the industry is 
headed.
    Mr. Costello. That could be a yes or no answer.
    Mr. Pierce. Well, but just so you know, all of the 
activities of the engineer are already recorded on an event 
recorder through the technology of the control stand. All we 
are going to get is a picture of what he does, yet we already 
know, with the exception of the cell phone use, what he does.
    Mr. Costello. I see my time is up. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Costello.
    Mr. Maloney.
    Mr. Maloney. Thank you, Mr. Chairman.
    Just to round out the point on funding--well, first of all, 
Ms. Feinberg, congratulations on being named the future 
Administrator. I want to point out that, throughout this 
process in my time on the committee, you have been 
exceptionally responsive, incredibly helpful to us in so many 
ways, and I am very excited to see that you are going to be 
continuing in this role.
    On the point on funding, the point is that, in the GROW 
AMERICA Act, you included $800 million for commuter rail 
systems to help them speed up the implementation of PTC. Right?
    Ms. Feinberg. Correct.
    Mr. Maloney. The point is it is not just Amtrak we are 
worried about. We are worried about all kinds of commuter 
systems that aren't going to have the money to do this on time. 
Right?
    Ms. Feinberg. Correct.
    Mr. Maloney. In fact, Amtrak is the only that has their act 
together on this. Right?
    Ms. Feinberg. Amtrak is the only one that has their act 
together. I would say Metrolink is also in good shape and SEPTA 
is impressive.
    Mr. Maloney. Right. So one of the great tragedies of this 
accident is that the fact is that Amtrak is in the best 
position of all the major rail systems we are concerned about 
to implement this life-saving technology.
    And there are real and important questions about what 
happened here and why, but among them is not some issue of 
Amtrak lagging behind other systems in its implementation of 
PTC. Isn't that right?
    Ms. Feinberg. That is correct. They are ahead of everyone 
else.
    Mr. Maloney. And isn't it, therefore, again, beside the 
point to talk about what Amtrak is doing with respect to the 
Federal funding?
    The point is that the Federal funding is absolutely 
critical for the other systems, like Metro-North, where the 
Spuyten Duyvil crash we know would have been prevented by PTC. 
And I want to thank you again for approving a $960 million loan 
for Metro-North to get that system moving faster with the 
installation of PTC. Right?
    And, in fact, you worked with us closely on my legislation 
included in the passenger rail bill, with the assistance of Mr. 
Denham and others, so that we could make explicitly clear that 
RRIF funding is available for all these systems because money 
is the issue. Right?
    Ms. Feinberg. Correct.
    Mr. Maloney. Right. And of all the people who ought to be 
apologizing for these accidents that keep happening because we 
don't have the safety systems in place, the United States 
Congress maybe ought to be at the top of that list. Wouldn't 
that be fair to say?
    Ms. Feinberg. I think that would be fair to say.
    Mr. Maloney. And I think that, when Mr. Boardman comes in 
here, who is clearly heartsick over this episode and who is 
doing everything he can and is going to meet this deadline and 
expresses his heartfelt regret, it might be nice if somebody on 
this committee expressed a heartfelt regret of the United 
States Congress for not having its act together in this area 
and so many others where the safety of the American people is 
being compromised because we are dithering instead of investing 
in our own country. Isn't that fair to say?
    Ms. Feinberg. Yes.
    Mr. Maloney. Thank you.
    And we have got 30 accidents and 69 deaths and 1,200 
injuries and this is the first one on Amtrak because we haven't 
had one on Amtrak like this in a quarter century. Isn't that 
right?
    Ms. Feinberg. That is correct.
    Mr. Maloney. So where the funding is most needed is where 
most of the deaths and most of the injuries are occurring. 
Isn't that correct?
    Ms. Feinberg. That's right.
    Mr. Maloney. Thank you. So, so much for whether funding 
matters for safety.
    Now, I just have a couple specific questions. Mr. Boardman, 
maybe you can help me out.
    You said that the northbound trains approach at 80 miles an 
hour in this junction and the southbound trains approach at 110 
miles an hour and, so, they installed the system where they 
knew they had to slow down at least to get to the derailment 
speed of 98 on the southbound side.
    But isn't, in fact, the required speed through that corner 
45 miles per hour when you slow down? In other words, you don't 
just slow down to a speed, you know, equal to or less than the 
derailment speed. You actually go down about half of it. Right?
    Mr. Boardman. We go down to a 50-mile-an-hour speed for a 
safety measure, from the 98.
    Mr. Maloney. And so can you help me understand, then. If 
that is the case, the recommended speed going northbound, even 
though the approach is below the derailment speed, it is not 
recommended that you take it at 80 even though you won't derail 
until 98. Right?
    Mr. Boardman. No. And we have been going around that corner 
since the 1930s in the same construct that is there without 
this code change.
    Mr. Maloney. But at what speed should an engineer take that 
corridor----
    Mr. Boardman. At 50 miles an hour.
    Mr. Maloney [continuing]. Northbound? 50.
    Mr. Boardman. Yeah.
    Mr. Maloney. And so it was just an oversight not to put the 
ATC system there to force the reduction in speed to 50?
    Mr. Boardman. No. What had happened, because of the Back 
Bay incident, the entire community of safety folks, along with 
the regulator, looked at what was reasonable for us as an 
industry to do.
    And what was reasonable was to make sure that we put in six 
locations a code change--because the only code change you could 
really do was down to 45 miles an hour--and that was where you 
were approaching at a speed that would overturn the train in 
the corridor.
    Mr. Maloney. I see. I see. And that is what we are working 
on now, is we are just going to close that gap.
    Mr. Boardman. Yes.
    Mr. Maloney. Last question. And just a couple of seconds 
left.
    Mr. Hart, could you just tell us again in plain English why 
we don't know whether this operator was on the phone 3 weeks 
after the accident. You said it was a time zone issue? Can't we 
just get the records? I mean, do we have the records? And, if 
so, wouldn't we know whether he was on the phone?
    Mr. Hart. We do have the records. The engineer was very 
cooperative. He even gave us the password to his cell phone.
    As we peeled the onion, we found more and more complicated 
issues relating to the fact that texting was on one time zone, 
the voice calls were on another time zone, there were 
duplications in the data, and other factors. So it turned out 
to be far more complicated than anybody anticipated.
    Mr. Maloney. But we will be able to determine beyond 
peradventure whether the phone was being operated at the time 
of the accident or shortly before?
    Mr. Hart. Yes. We will be able to verify the accuracy of 
that. Because obviously that is very, very crucial, to get that 
right.
    Mr. Maloney. All right. And thank you, sir, for the 
extraordinary work your agency does.
    Mr. Hart. Thank you.
    Mr. Maloney. I have seen it up close in the Metro-North 
crash, and it is really extraordinary how professional and how 
efficient you guys are.
    Mr. Hart. Thank you.
    Mr. Maloney. So thank you, all.
    Mr. Denham. Thank you, Mr. Hart.
    Mrs. Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I want to follow up on that. After 3 weeks, I have to say I 
am very frustrated that we don't have a timeline today in any 
way, shape, or form. To the extent we have one, it indicates 
the train departed at 9:10 and then the crash is at 9:21.
    So in terms of the phone records, to follow up on that, 
since the requirements say that it should be turned off and 
stored, do we know if the phone was turned off and stored 
during that 9:10 to 9:21 timeframe?
    Mr. Hart. What we know is that there was use of the phone 
on that day, May 12. What we don't know with certainty are the 
specifics that will address your question.
    Mrs. Comstock. OK. But like, you know, I just texted back 
my daughter, ``Yes. I can baby-sit on Friday,'' you know, 
11:42. That is on my phone now. Now, if it was a California 
phone, I guess it might say 8:42 and then you could figure it 
out.
    I mean, 3 weeks after, why can't we take those 11 minutes 
and have a timeline for the victims and the families to have 
that type of information? I just don't understand what the 
holdup is.
    Mr. Hart. It has been far more complicated than any of us 
anticipated to be able to not only get the record from that 
phone, but then also to verify with the other source----
    Mrs. Comstock. But was the device turned off?
    Mr. Hart. We don't----
    Mrs. Comstock. Because if the device was turned off, then 
you could not have used it between 9:10 and 9:21. Right?
    Mr. Hart. One of the things in determining the timeline in 
that day is when was the device turned on and when was it 
turned off.
    Mrs. Comstock. But just given the 3 hours in California, 
your timeline would have certain limits. I mean, if he hadn't 
used the phone within certain hours, you would know whether it 
is possible or not.
    Like if my phone said 8:42 instead of 11:42, then you would 
know there was an issue. But if it said 7:42, then you would 
know it is not possible. So I am just trying to understand why 
this is so complicated.
    Mr. Hart. Well, for example, we found discrepancies within 
the carrier's own time systems in which it didn't agree with 
itself. So we have got a lot to work out that is far more 
complicated than we anticipated.
    Mrs. Comstock. OK. Well, then, how much would it cost us to 
not allow an engineer to have a phone in the cabin?
    Mr. Hart. I couldn't speak to that question.
    Mrs. Comstock. Would it cost anything?
    Mr. Hart. We don't deal in the cost ramifications. We are 
looking at----
    Mrs. Comstock. No. But my understanding is the regulations 
say that the railroads have the right to implement their own 
more stringent rules.
    Why can't we today just say you are not allowed to have 
your personal devices in the cabin, period? Just like when we 
go to classified briefings, it is not a trust system. We can't 
bring it in. Why can't we do that today?
    Mr. Hart. I would defer on that question to Ms. Feinberg.
    Ms. Feinberg. Railroads can certainly put that into place.
    Mrs. Comstock. That would not be a cost issue, would it?
    Ms. Feinberg. I would not think so.
    Mrs. Comstock. OK. Would you all feel safer if someone did 
not have a device? We wouldn't be 3 weeks later trying to tell 
people whether or not they had a device and were using it at 
that time?
    Mr. Hart. Well, it would certainly make our investigation 
easier if we didn't have to look into this, but we do have to 
look into it and----
    Mrs. Comstock. But if we implemented a policy that just 
said don't have the devices in there, period. If you need to 
use a device, you step out of a cabin. You do whatever. You use 
it when you are stopped. But it cannot physically go in there. 
Is there an issue about--why isn't that done?
    Mr. Hart. Again, I would have to defer to the regulators 
and to the railroads on that.
    Mrs. Comstock. Does anyone think there would be a cost 
related to removing personal devices from the cabin?
    Mr. Pierce. Use of the devices is already prohibited. You 
are talking about an additional prohibition, but I am sure that 
the NTSB would also investigate compliance with that 
prohibition just like they do with today's prohibition.
    Mrs. Comstock. OK. And what kind of compliance issues are 
there? What kind of spot checks are there right now to know, 
short of an accident, whether someone's using their phone or 
texting during their time in the cabin?
    Mr. Pierce. Certain locomotives now are equipped with cell 
phone detection equipment. It can be detected and----
    Mrs. Comstock. Did this cabin have that detection so that 
they could detect it?
    Mr. Pierce. I don't believe so.
    Mr. Hart. I don't know the answer to that at this point.
    Mrs. Comstock. It seems like the no-cost safety solution 
here is today to say don't bring them in.
    Mr. Hart. What is detectable is the signal in and the 
signal out. What is not detectable so easy is was somebody 
manipulating the phone, for example, by using an app, but not 
actually sending a signal at that moment.
    Mrs. Comstock. OK. But you did find the cell phone was in 
the cabin that day?
    Mr. Hart. Yes.
    Mrs. Comstock. And was it turned off or not?
    Mr. Hart. I do not know the answer to that.
    Mrs. Comstock. Does anybody know if it was turned on or 
off? How could we not know that at this point? That is the 
regulation. So if it was on, that was a regulation violation. 
Right?
    Mr. Hart. I don't know it at this moment.
    Mrs. Comstock. Do any of the witnesses today know that?
    Ms. Feinberg. I mean, I would just say that, as, you know, 
the NTSB leads the investigation, we partner with them and we 
also do our own investigation.
    There has not been a concern on the FRA's part that we will 
not figure this information out. It is a little complicated. It 
is more complicated than----
    Mrs. Comstock. I understand the complication, but this is 
something that is so easy to find out quickly and then we could 
know--like this action could've been taken a day after.
    Hey, until we know--we know there was a cell phone in 
there. Why don't we just say you are not going to bring your 
cell phones in the cabin anymore?
    Because unless someone can tell me there is a safety 
concern about not having--my grandfather worked on the 
railroads for 40 years and he safely worked on them for 40 
years without a cell phone.
    So I am just trying to figure out, is there a cell phone 
issue here that you need to have it in the cabin for safety 
purposes?
    Mr. Denham. The gentlelady's time is expired.
    We will present these questions in writing as well.
    Mrs. Comstock. Mr. Chairman, I really hope we can get a 
timeline very quickly because I just find it very frustrating 
not to have some of this basic information. That is not a 
judgment thing. It is just facts. And then we can explain it 
and make decisions. But people are talking about safety 
concerns and where we are doing these things and there is no 
cost issues. We are sitting around after 3 weeks not doing 
something about it.
    Mr. Hart. We will develop a very precise timeline.
    Mrs. Comstock. And what do we have----
    Mr. Denham. The gentlelady's time is expired.
    Ms. Esty, you are recognized for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    And I want to thank all of our panelists today for your 
hard work.
    As a representative from Connecticut, I have to say, you 
know, the folks I represent are concerned, and we are talking 
about thousands of people in my district who ride the lines 
every day to get to work.
    And so it is in our shared interest for their safety and, 
also, for the integrity of the system. I mean, when we talk 
about numbers of deaths, confidence in the system is vital. So 
I want to start, in part, with that.
    And, again, I extend my congratulations to you, Ms. 
Feinberg. You have been exceptionally responsive and helpful, 
and I hope that the Senate moves rapidly on your confirmation.
    There has been a lot of things that have been talked about 
in today's hearing, and I want to make sure we are getting 
clarity on the record, particularly because of this issue about 
Positive Train Control and lines owned by Amtrak as well as all 
the other lines that we have passengers riding on, particularly 
in the Northeast Corridor.
    Is there anything else--and this is for you, Ms. Feinberg--
that is needed to get Positive Train Control on all portions of 
the Northeast Corridor, regardless of who owns the track?
    We know we have got funding for and a commitment by Amtrak 
to meet that, but we have lines owned in Connecticut, 
substantially, a bit in New York, a bit in Massachusetts.
    Is there anything else in terms of funding or authority 
that is necessary for that?
    Ms. Feinberg. Well, in terms of funding, there are funding 
struggles throughout the system on PTC. In terms of authority, 
we are concerned that some railroads will miss the deadline and 
that we will then lack the authority to force them to implement 
interim measures that will raise the bar on safety between that 
moment and when they actually have PTC implemented.
    We have asked the Congress for that authority. We think it 
is appropriate. If the deadline is going to be missed, we want 
to make sure that the railroads are taking steps to raise the 
bar in safety before they implement PTC fully.
    Ms. Esty. If you can follow up with us on the specific 
authority you believe you need. I have commuter lines dropping 
down from, say, Danbury, dropping down from Waterbury, through 
New Britain, through Meriden. These are really important for us 
to check.
    Ms. Feinberg. We will do that.
    Ms. Esty. Also, following up on a question from Chairman 
Shuster--and it is a similar question--is there any action you 
need from Congress or authority to follow up on evaluating the 
safety of these curves?
    Obviously, we want to get high-speed rail line. And if we 
are getting derailments that is well below what, say, the Acela 
that I take from time to time is running, is there additional 
authority that you believe you need from us to make that 
possible?
    Ms. Feinberg. I don't believe that we need additional 
authority on the curves. Where Amtrak has supplied us with the 
curves that they are focused on, we are taking a look at that 
list.
    We will go back and forth with them and make sure that we 
agree on the actions, moving forward, on those specific curves. 
We are continuing to work on next steps that go beyond Amtrak 
on curves and speed, and we will have more to say on that in 
the coming days.
    I think there is, going back to Chairman Shuster's 
question, some frustration that could more have been done 
following the Metro-North incident. Again, you know, I am not 
sure that comes down to authority so much as, you know, as 
regulators, we have very few tools and the tools that we have, 
they are sometimes blunt instruments.
    And so emergency order authority is incredibly narrow and 
can't be as broad as we want. Safety advisories are 
recommendations. They don't have to be followed. And the 
rulemaking process takes years. So----
    Ms. Esty. Thank you.
    And for you, Mr. Boardman, I have some concern, given the 
importance of these accidents, that so much emphasis is being 
placed just on PTC. I am looking at billions of dollars in 
infrastructure upgrades.
    And, in particular, if you could talk about--how are you 
going about prioritizing the bridges that are 100 years old and 
more that the Northeast Corridor runs across these bridges 
every single day?
    And what, if any, help in addition to the additional 
funding, which I join my colleague and not only seatmate, but 
adjacent districts, with Mr. Maloney that we need a lot more 
funding to address this backlog of infrastructure, which is 
also safety. If a bridge goes down when a train is attempting 
to cross, that is also a safety concern.
    Can you talk a little bit about the prioritization?
    Mr. Boardman. Certainly. I think one of the most important 
things that occurred was in the PRIIA Act, the commission that 
was established in the Northeast of all the States, the Federal 
Government, and Amtrak to look at what projects needed to be 
done, what the backlog was, and how we needed to prioritize for 
the future.
    And a lot of that conversation that has occurred has really 
identified the projects that need to be done, a lot of them, 
bridges, tunnels, the major impacts that we need to get done.
    They have been identified. In one particular case, we have 
ready to build the Portal Bridge, which would be about a $1 
billion project. So our priority is there for these 
infrastructure improvements, which will also improve safety. It 
is in place.
    Ms. Esty. Thank you.
    Mr. Denham. Mr. Zeldin, you are recognized for 5 minutes.
    Mr. Zeldin. Thank you, Mr. Chairman.
    I was actually on the route 24 hours beforehand. I 
represent New York 1 on the East End of Long Island. Some other 
Members were traveling with me as well.
    And as we are here, I would be remiss if I didn't offer my 
thoughts and prayers to the families of those whose lives were 
lost, of those who were injured. It is a terrible tragedy that 
took place.
    I kind of wish that all of the entirety of Congress would 
be willing to allow us and the families to mourn for Amtrak and 
for the employees of Amtrak, everyone who was impacted by it. I 
wish that there was a little more time that was dedicated 
towards mourning.
    Unfortunately, the next day--and I think it is pretty 
shameful and disgusting--not even 24 hours go by and we have an 
entire party here in Congress that was blaming a potential 
future funding cut on an accident that happened yesterday. I 
mean, I have heard of spin, but this is a first for me.
    I mean, literally, you wake up the next morning and, 
instead of dedicating your day towards mourning the loss of 
those--I mean, the families that were so greatly impacted, you 
come onto the floor throughout these halls and you stand in 
front of the cameras without saying my heart goes out to the 
family, without offering up any type of emotional remorse--
because it is a terrible tragedy that impacted Amtrak--
immediately you are blaming a potential future funding cut on 
an accident that happened yesterday. I would challenge anyone 
to find an example of this in history. And you couldn't even 
wait 48 hours to start with the politics. It started the next 
morning.
    The engineer was obviously traveling over twice the speed 
limit, and that is the reason why there is an investigation. It 
is very important to Amtrak that they finish the project of 
getting PTC operational, specifically on the Northeast 
Corridor. I know that this body passed legislation.
    Being from the Northeast and knowing how profitable the 
Northeast Corridor and the Acela trains are, it is good that we 
see that money getting reinvested back into the system. I have 
some colleagues in some other parts of the country who may 
think otherwise, and that is OK. I am parochial in a way to my 
home State, my home region.
    I came here from New York State. In the State legislature, 
I served on the Transportation Committee, the MTA, which is the 
Nation's largest, you know, mass transit system for that 
locality. And we have heard the Metro-North talked about and 
the Long Island Rail Road.
    We found a way, Republicans and Democrats working together, 
to try to create a second track between Farmingdale and 
Ronkonkoma on Long Island for the Long Island Rail Road.
    There are infrastructure improvements all over the New York 
City metropolitan area with the involvement of people of New 
York City, up in Albany, working with the MTA, working with the 
unions, trying to figure out how to invest in the 
infrastructure.
    It is also important to note that that Amtrak legislation 
that was passed by the House discusses the RRIF component. That 
allows the MTA to apply for the $1 billion in financing.
    But the investment can be made--it would be very nice if my 
colleagues on the other side of the aisle, instead of us 
trying--and, listen, when we ask, ``It is a great idea. How you 
are going to pay for it?'', it is not to get to no. It is to 
get to yes.
    For me personally, I want to be part of the discussion to 
figure out how we can invest in our infrastructure all across 
the country. That is what I believe as a matter of principle.
    But with my final minute, Mr. Hart, just getting back to 
you, just so I understand something, are there texts on the 
phone from 9:10 to 9:21?
    Mr. Hart. We know that there is text, data, and voice 
activity that day, and we will develop a specific timeline of 
when the phone was in use.
    Mr. Zeldin. But on the phone itself, like when you look at 
the phone and you scroll through texts, it doesn't show a text 
from 9:10 to 9:21?
    Mr. Hart. We will have a timeline of that by the time we 
are done.
    Mr. Zeldin. Because I understand Mrs. Comstock's 
frustration. And it just seems like something that, you know, 
if he gives you access to the phone, you look at the phone and 
then you know the answer in, like, 5 minutes.
    Mr. Hart. We were surprised by the complexity of it 
ourselves.
    Mr. Zeldin. OK. And you can also balance----
    Mr. Hart. And we are experts at this.
    Mr. Zeldin. I know you are. And, I mean, the entire route 
has all these--are you getting cooperation from the cell phone 
companies?
    Mr. Hart. Yes.
    Mr. Zeldin. Do you have all the cell phone towers, the 
pings off towers?
    Mr. Hart. Yes.
    Mr. Zeldin. I mean, it really shouldn't be that hard.
    Just so you know, for the families, the real advocacy--the 
effort on your part to try to get answers and Amtrak's efforts 
and all of you who are here for that cause, the frustration on 
our end, too, is just on behalf of constituents and families 
who are eager. They understand when some things take longer 
than others, but maybe they just don't understand on this front 
why we don't have more answers as far as the engineer goes.
    Yield back the balance of my time.
    And thank you for being here.
    Mr. Denham. Time is expired.
    The gentlelady, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I very much appreciate and support all your efforts in the 
Northeast Corridor, but I would like to shift west of the 
Mississippi for just a few minutes.
    At 11:19 on June 24, 2011, a tractor-trailer driving north 
on U.S. 95 slammed into the side of Amtrak Train No. 5 on the 
California Zephyr line. This was at a railroad grade crossing 
outside the small town of Miriam in rural Nevada.
    Now, the driver of the truck was at fault. He had been on 
duty for nearly 9 hours, I might add. But he failed to heed the 
train horn and went ahead and crossed the track. The impact of 
that created a fire. It killed the driver, killed the train 
conductor, killed 4 passengers, and injured 15 other passengers 
and 1 additional crewmember.
    Now, PTC wouldn't have stopped that, but the investigation 
that was done by NTSB outlined concerns about side-impact 
strength requirements for passenger cars and what happens with 
impact crashworthiness when it comes from the side.
    If you look at the report they issued, two recommendations 
were to develop side-impact crashworthiness standards, 
including performance validation for passenger railcars, and 
then, once those side-impact crashworthiness standards had been 
developed, to require that new passenger railcars be built to 
those standards.
    I would just ask you, Ms. Feinberg--we have had all these 
studies about train-to-train collisions. Has any research been 
done on these types of side-collision impacts?
    Ms. Feinberg. Yes, ma'am. We are doing research now. At the 
NTSB's recommendation, we are doing research now on those side 
impacts.
    Ms. Titus. Is that it? Can you give me any more information 
about what that entails or where you see that going? Or will 
you be making recommendations or changing regulations?
    Ms. Feinberg. Yes, ma'am. That research is ongoing, and we 
can get your office a full report. I mean, apart from that, we 
have done a tremendous amount of work on grade crossings 
generally, which have continued to be a problem for many years 
and, in fact, are on a slight uptick this year. And we have a 
multifaceted approach to grade crossings generally, but on 
side-impact collisions alone, our research is ongoing.
    Ms. Titus. Well, if I could then ask Mr. Boardman--and this 
goes back to the very first question that Mr. DeFazio asked 
about buying new train cars--if this study, whenever it gets 
done, comes with the recommendation that new requirements 
should be made for train cars that meet some increased 
standards for side crashes, are we going to get any new cars? 
How many cars have we gotten? We have heard that they were 40 
years old. You look at the pictures of the cars that were so 
crashed compared to the locomotive. Would you elaborate on that 
a little bit more.
    Mr. Boardman. These are the bilevel cars which have a lower 
section. I went to that accident site.
    Ms. Titus. I think you were the assistant director or 
something at that time.
    Mr. Boardman. Pardon me?
    Ms. Titus. I realize you were involved in this report for 
the accident in Nevada.
    Mr. Boardman. No. I was the CEO for Amtrak.
    I went out there at that time and looked at what happened. 
It was a double tractor-trailer. The side impact is what killed 
our conductor, but it was really a singular case, that the back 
trailer came up and hit the top of the train that did the 
passenger--or deaths and injuries.
    I am not a mechanical engineer. There is a huge problem at 
that particular location. It was a very strange crash because 
there was total visibility for the truck that went into the 
side of the train. And if you were going to protect for that by 
replacing the equipment, you would have major engineering that 
would have to occur, and I would have to see whether any such 
thing could happen.
    Ms. Titus. So you disagreed with the recommendation that 
they need to look at side----
    Mr. Boardman. No. No. I don't disagree with the 
recommendation at all. I just think it would be a very 
difficult thing to--we can't retrofit it for it. So it would 
have to be new equipment. You are probably talking 450 of the 
bilevel-type cars.
    You are talking probably $3.5 million to $4 million apiece 
for each of those cars. That would be a substantial cost in 
doing that. And it would take us probably 10 years to make 
those kinds of changes and deliver new equipment.
    Ms. Titus. What about as you buy new cars?
    Mr. Boardman. We haven't bought any new cars in a 
considerable period of time.
    Ms. Titus. That was my point, going back to Mr. DeFazio's 
question.
    We have heard a lot about spending money for the signaling 
system, and we have heard about money about infrastructure. But 
what about all these old cars? What is the plan there?
    Mr. Boardman. The plan right now--what we did with the 
single-level cars and with the locomotives, we are paying for 
that out of the fares that we receive in the Northeast 
Corridor.
    On the long-distance trains, there is no additional 
revenue. It is a completely deficit operation, and we don't 
have those resources to borrow money on the RRIF program or any 
other way to replace those cars.
    Ms. Titus. And that seems to me to be a problem.
    Mr. Boardman. Yes, ma'am.
    Ms. Titus. Thank you.
    Mr. Denham. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you to each of the witnesses for being here 
today.
    My first question, Mr. Boardman. Going back to earlier 
statements you made during the Q and A, you had mentioned that 
there were 6 to possibly 10--if I am doing the math right--
vulnerabilities identified similar to what we saw in the 
Northeast Corridor and the northbound train going toward the 
curve. And you mentioned that these types of curves existed.
    And have you installed code change points at those curves? 
And, if so, was there a cost to do so?
    Mr. Boardman. So you have to go back to the Back Bay 
incident in 1990. And when that occurred, the safety community 
got together, the operators got together, to look at what needs 
to be done to protect ourselves in that case.
    And what they identified were six curves on the Northeast 
Corridor that they needed to treat. And those six curves 
included the north side of the Frankford curve because the 
southbound entrance speed at 110 was greater than what the 
turnover speed was in the curve itself.
    Mr. Davis. Correct.
    Mr. Boardman. And so they put a code change point there.
    Mr. Davis. Is there a cost to install the code change point 
there?
    Mr. Boardman. I will get to that in a minute.
    On the south side, there was not a need to do that because 
the northbound approach speed was 80 miles an hour. And, 
therefore, even if that engineer failed to slow, they wouldn't 
overturn. So there were six places along the way.
    Mr. Davis. A total of six.
    Mr. Boardman. And there is a moderate cost to do anything, 
as you know, but it is not a major cost.
    Mr. Davis. What is the moderate cost?
    Mr. Boardman. I don't know.
    The Automatic Train Control system really provides an idea 
whether there is something in front of you on the tracks. So 
the way that you do this code change is you really have a bit 
of fiction here. You say there is something at the curve, and 
so that is when you put the code change point in. So it wasn't 
built to do Positive Train Control.
    Mr. Davis. OK.
    Mr. Boardman. And the other four, where you added up six 
and four, what we looked at with the FRA emergency order was 
the change that occurred here in that conditions that exist on 
the south side--and we put that code change in on the south 
side--we looked to find out on the Northeast Corridor--we have 
300 curves--what conditions--or what curves meeting that 
condition need to be changed. And that is what we told FRA we 
would work to do.
    Mr. Davis. OK. I don't have a lot of time left. I have a 
lot of questions.
    So if you could have your staff get back to me on if you 
found any other Amtrak corridors with the same issues and when 
do you estimate you will be done identifying and actually 
installing code changes on those areas identified as 
vulnerable.
    Mr. Boardman. We would only do this on the Northeast 
Corridor on the emergency order.
    Mr. Davis. I mean, I have Amtrak corridors in my State of 
Illinois.
    Are there any other vulnerabilities there that you have 
identified?
    Mr. Boardman. You have them all over the United States 
because we are mostly on host railroads. And they depend on the 
expertise of our engineers and how the signaling system work 
or, if there is no signaling at all--and there are locations 
across the country where that occurs--they depend on what we 
call a Form D control point--control system.
    Mr. Davis. OK. Well, I am going to move on to a different 
subject.
    In a 2012 inspector general report, Amtrak was criticized 
because, despite the legal requirements to do so, Amtrak did 
not include the funding requirements for PTC in its 5-year 
financial plan and annual budget request. And this is directly 
from the IG report here.
    Your engineering and finance departments could not explain 
this critical omission. Can you?
    Mr. Boardman. Well, what we saw in that particular report 
from 2012 was that they were looking for us to have come to 
Congress to specifically ask for PTC service, and that wasn't 
how we operated with with Congress. We had almost like a block 
grant of capital projects.
    We identified--I identified, as soon as I got over there, 
what it was going to cost for us to meet this requirement by 
December of 2015, and it was about the safety of that, not 
about the dollars of that.
    Mr. Davis. OK. I am reading the report here, and it just 
said, ``Further, a transportation official stated that his 
departments purposely omitted PTC installation costs on host 
railroad lines from Amtrak's 5-year plan and annual budget 
request. He cited his belief that including these costs in the 
budget would weaken Amtrak's negotiating position with the host 
railroads,'' et cetera.
    That is concerning to us. But I appreciate the job you do. 
Thank you for being here. Thank you to all the witnesses.
    I yield back the balance of my time.
    Mr. Denham. Thank you.
    Mr. Sanford.
    Mr. Sanford. Thank you.
    In deference to my dear chairman, I am going to try and 
make my comments brief, since I am separating him and each one 
of you all from lunch. And you guys and gal have been most 
generous with your time, and I appreciate it.
    I would associate my comments with what Congressman Zeldin 
said just a moment ago with regard to indeed mourning for the 
loss of life, a very sad day.
    But what I think is important in the wake of any sad day or 
any tragedy is to go in, do the investigation, but to make sure 
that, in many ways, as a society, we don't overreact in ways 
that would make the system less sustainable from a financial 
standpoint, we don't overreact in ways which really impinge 
upon sort of the cornerstone of the American republic, which is 
individual liberty, and we don't overreact in ways in which it 
becomes so constraining so that the practical effect is people 
saying, well, I am walking.
    I guess the safest of all mechanisms would be to put people 
in those things that you strap into at a public fair. I mean, 
you are locked in, but from the standpoint of practical effect, 
you can't use your laptop, you can't talk on the phone, and you 
would say, I am going to a different mode of transportation.
    And with that in mind, it seems to me, in the course of the 
hearing, two ideas have come out that I think would be 
dangerous in terms of overreaction to the real-world tragedy 
that each one of you all have had to deal with.
    One is this idea of seatbelts. You know, if you think about 
it, there is a reason there are seatbelts on the airplanes, 
which is you have all kinds of vertical and horizontal 
considerations based on airlift that is well outside the 
control of the pilot.
    We have been in those thunderstorm moments where you are 
like, ``oh, my goodness, what is happening next?'' That does 
not occur on the train. And what we all know is, when a plane 
crashes, wearing a seatbelt or not, tragically, a lot of people 
die.
    Same thing with school buses. I mean, a lot of kids ride to 
and from schools daily and, in most cases that I am aware of, 
certainly in the case of South Carolina, there aren't seatbelts 
for those kids.
    I think it would have dangerous effects--I would love to 
hear some of your further thoughts on this--if you were to 
impose seatbelts as a reaction to this real-world tragedy. My 
sense is it would be a step too far.
    The other, I guess, would be directed more to you, Mr. 
Pierce, and that is this notion of moving to two men in the 
front of the train. It seems to me it would be an added 
financial burden to the Amtrak system, which is already 
straining to the tune of more than $1 billion a year in terms 
of subsidy and other.
    And if you look at the whole notion of moving toward 
Positive Train Control, the idea is to take out that 
possibility of human error, which wouldn't be, frankly, 
truncated or eliminated if you move to a two-man system up 
front.
    I think it is important, what you all have done at the 
Amtrak level to move to this notion of inward-facing cameras. I 
mean, I think that that can watch out for human error. But I 
think that that would be a step too far as well.
    Any thoughts on either one of those two as steps too far?
    Ms. Feinberg. I mean, we are moving ahead with inward-
facing cameras. To be clear, this was something that my 
predecessor was moving ahead with prior to his departure. This 
committee has many times urged the FRA to make sure that we are 
making use of the RSAC committee process.
    We asked the RSAC to take action on inward-facing cameras. 
They have been unable to come to a conclusion. We told them 
last week that we were taking it out of the RSAC and moving 
ahead.
    Mr. Sanford. You would agree with me on seatbelts or two 
men in the front?
    Ms. Feinberg. Seatbelts, again, my concern is--the way that 
I have been briefed on it is that the need to harden the seats 
in order to put seatbelts in would be more dangerous to 
passengers than belting passengers in.
    So, you know, if the NTSB feels differently, we will start 
our engagement and conversations with them, but that is my 
understanding of why seatbelts may not be the best move on a 
train because it would make people more dangerous.
    On two-person crews, you know----
    Mr. Sanford. And I just go back to marketability as well. 
Oftentimes when I travel to New York--I have a son that works 
there. I used to work there--the reality is people are up and 
moving and that is part of why you take the train as opposed to 
getting on an airplane.
    You can be on the phone. You can be having a small group 
meeting with a couple of other folks. You take that out, I 
think you begin to lose market share that much further relative 
to plane travel.
    The other, though? I am sorry.
    Ms. Feinberg. On two-person crews, that is something we 
have been taking a close look at. To be clear, it is less 
relevant in passenger service because there are multiple people 
in a crew. So Amtrak had six people on the crew on this 
particular train. It usually is discussed separately.
    But, you know, following the Metro-North incident, one 
thing we required of Metro-North is for the engineers to be in 
almost constant conversation with the conductor to make sure 
that they are talking back and forth, signals, and to make sure 
that the conductor had access to an emergency brake, which is 
another good approach.
    Mr. Sanford. I hear my chairman's ever so gentle tap, tap, 
tap. I get the message, sir.
    Mr. Denham. I would like to thank the gentleman for being 
so expedient today and yielding back so much time.
    Mr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. Last, but not 
least, hopefully.
    Thank you, witnesses, for your time and efforts as we try 
to reach answers to this great tragedy that occurred in the 
Northeast Corridor. It has been interesting to listen to some 
of these lines of questioning. It is hard for me to imagine why 
it is so complicated to get the answer to whether the engineer 
was utilizing a cell phone at the time of the crash.
    It seems like it should be just a simple answer, a simple 
endeavor, to find out exactly, as Mrs. Comstock said in her 
line of questioning, hey, during this period of time, did he 
text? Did he use his phone? It should be there. It is hard to 
figure out why that is not true.
    And in terms of further investigations, there was a news 
report--several of them--that stated that Amtrak Regional 188 
had a fist-sized area of severe damage on its windshield, 
possibly consistent with that of being struck by some rock or 
object.
    Twenty minutes before the crash of 188, a regional commuter 
train in the same area had to stop service after its window was 
hit by an object.
    Finally, also around the same time, Amtrak Acela 2173 was 
apparently also struck by an object while traveling southbound 
in the very same area.
    And there is an old saying that, while once is an accident, 
twice is a coincidence, and three times is a pattern. Do you 
think, Mr. Hart, that that applies here?
    Mr. Hart. We are confident that the train left the station 
without any windshield damage because that is part of the 
inspection process before leaving the station. So we are 
confident that the damage occurred after leaving the station.
    What we don't know is whether it occurred before the 
accident or after the accident. We do know that it was not a 
result of a firearm. The FBI helped us determine that. But we 
know that rocks are thrown at train windshields all the time 
and it can crack the windshield. That could have happened here.
    That is a way that the windshield could be damaged, but it 
also could be post-accident damage as well.
    Dr. Babin. So there has been no revelations or any findings 
during the investigation of any individual or individuals, 
culprits, responsible for the damage done to the other two 
trains as well? Have we found out anything in that regard?
    Mr. Hart. No. We do not have any information yet in that 
regard.
    Dr. Babin. Would anybody else, any other panelist, like to 
address that, the possibility of damage to the windshield?
    Mr. Boardman. I think we have from time to time had people 
throw rocks at our trains. But what is the specific question, 
sir? In terms of what?
    Dr. Babin. Well, you know, when I rode--I have family that 
lives in Manhattan and they ride this train. I have ridden the 
train several times along the same corridor.
    And I have remarked to myself and to others that there is 
certainly a lot of availability, a possibility of vandalism, 
somebody pitching something over onto a train or firing a 
weapon or whatever.
    And I just wonder, besides the investigation that is 
ongoing now, has there been any addressing of this possibility 
by NTSB or any of the other of your agencies?
    Mr. Boardman. Well, actually, the way we have been 
addressing a particular area that we have difficulty, including 
this one, is with our Amtrak Police Department and the 
partnerships we have with the police departments along the way.
    So as we have been there, we are looking to see where those 
rocks might have come from. And anywhere else that we have that 
kind of difficulty on the corridor, we do have an investigation 
that goes on to see if we can find the when and the where and 
who that might be tossing rocks.
    And it is generally an immature person, some kind of kids 
or something, that are doing that. And it is not just the 
trains. It is the buses, the cars, the other kinds of 
conveyances as well.
    Dr. Babin. OK. Mr. Chairman, I yield back. Thank you very 
much.
    Mr. Denham. Gentleman yields back.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Mr. Hart, what time is it?
    Mr. Hart. 1:06.
    Mr. Capuano. I have got 1:06. That has 1:05.
    Do seconds matter on a train going 100 miles an hour?
    Mr. Hart. They are very crucial. Yes.
    Mr. Capuano. And my presumption--correct me if I am wrong--
is, at this point as we speak, you have some general knowledge 
of what occurred with that cell phone. Is that a fair 
assumption or have you just not looked at it at all?
    Mr. Hart. Yes. We are looking at it intensively with 
respect to May 12, that specific day.
    Mr. Capuano. So you are dotting your i's and crossing your 
t's before you make a public statement?
    Mr. Hart. Yes. That is very crucial that we get that fact 
right, and we are not going to be hurried into getting a wrong 
answer.
    Mr. Capuano. And is that the normal course of events for 
the NTSB?
    Mr. Hart. Yes. We look at cell phones all the time now 
because we are seeing cell phone distraction so frequently, 
unfortunately, in every mode.
    Mr. Capuano. I appreciate that. And, again, I, like 
everyone else, I am frustrated the cell phone thing is not 
settled yet. But I presume you have got some general 
information about what has happened; you have been reluctant to 
say it because you are dotting your i's and crossing your t's, 
which is exactly what I want you to do. Now, it would be nice 
if you could dot all those i's and cross all those t's now. I 
hope it is soon. I assume it will be. But, nonetheless, I guess 
I am on the way.
    On seatbelts, Ms. Feinberg, again, you are not as old as I 
am. When I was a kid, we didn't have seatbelts in the car. We 
had them, but--I am not even sure if we had them. I take it 
back.
    I used to be thrown in the back of the station wagon. We 
could play all day long and run around the back of the station 
wagon, until my mother and father turned around and made the 
classic threat, sit down and shut up, or I will turn around; I 
will stop this car. You know, every kid my age heard that. Yet, 
we put seatbelts in cars. You restricted my freedom. Now I 
can't run around in the car. You have seatbelts in airplanes. 
You restricted my freedom, yet I could still get up, go to the 
toilet, talk to my friends in the back. And I understand fully 
well that the structure of current trains may not make it much 
use.
    I get that. And I get the fact that it may take us 5, 10, 
15 years, to get where we want to be on seatbelts. But at some 
point, again, on the presumption that seatbelts help, and I 
presume they do because the automobile industry and the 
airplane industry have instituted them. And I know some people 
don't wear them. I am not perfect at it myself. I didn't start 
wearing my seatbelt until I started screaming at my own kids to 
put their seatbelt on, otherwise, Dad would get arrested, which 
at that age they actually cared about. At some age, they are 
not so sure. And then I realized what a hypocrite I was. I 
started wearing my own seatbelt. Which, like it or not, it is 
better for me. I get that. And I am not suggesting we need to 
put seatbelts in the train now.
    But to pretend that seatbelts in a train is somehow going 
to, you know, restrict people's freedom and drive the ridership 
down is absurd. And I would simply encourage you, if it is a 
safety issue--again, I am not the expert. I will listen to the 
NTSB. If seatbelts can help save lives or stop injuries, then 
we will should start planning on the implementation of them. If 
it can't be done on the current train configuration, fine. I 
get that. But at some point, Mr. Boardman, you are going to 
order some new trains. When you do, maybe you can implement 
seatbelts on it. But those are the two things. With that, I 
just want to do one other thing.
    Mr. Chairman, I ask you to consent to include in the record 
materials from FCC, which shows what the FCC has done to help 
and/or hinder the railroad's move towards Positive Train 
Control.
    Mr. Denham. Without objection, so ordered.
    [The information follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Capuano. With that, I yield back. See, I did give you 
time.
    Mr. Denham. If Mr. Sanford were here, he would take note.
    Obviously, there is a lot of frustration in this committee, 
and certainly, a lot of tension to the lack of answers thereof. 
It has been 3 weeks now. This has been all over the media, 
rightly so. There has been loss of life. There are Americans 
that are still looking for answers in this as well. I know you 
will continue to do your research, but you have now come before 
the entire Committee on Transportation and Infrastructure of 
Congress to come here and not have cell phone information, 
whether the cell phone was on or off, operable, to not 
understand what those records are after 3 weeks, to not have an 
idea whether there was a mechanical failure when you have the 
train, a brand new Siemens train has been put in service less 
than a year ago, and we can't do the autopsy on the train and 
understand whether there was a mechanical failure.
    It sounds like, while the engineer does not have 
recollection seconds before the crash, but he is at least being 
cooperative. We ought to have some assumptions, or some facts 
of whether or not there could have been operator error or an 
operator that actually created some type of malfunction. There 
are very few answers right now 3 weeks after one of the most 
horrific crashes that our Nation has ever seen.
    So because of that, we are going to ask you for a timely 
response to the questions that have come here today. We need to 
make a determination whether or not this body will have another 
hearing several weeks from now.
    So with that, I would ask unanimous consent that the record 
of today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may have been 
submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for additional comments, and 
that witnesses provide answers to our questions for the record 
within 15 days of today's hearing.
    Without objection, so ordered. I would like to thank each 
of our witnesses for being here today. Again, I would also like 
to thank our witnesses for your expedient response to the crash 
site itself and the collaboration that each of you showed in 
working together to resolve that.
    And Mr. Hart, any response?
    Mr. Hart. Yes. Just one final comment. We have not found 
any anomalies with respect to the locomotive, just for 
clarification. We haven't found any anomalies with respect to 
the tracks, the signals, the brakes, or the locomotive that 
would explain this accident.
    Mr. Denham. Thank you, Mr. Hart.
    If no other Members have anything to add, the committee 
stands adjourned.
    [Whereupon, at 1:12 p.m., the committee was adjourned.]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
</pre></body></html>
